<html>
<title> - VA'S INDEPENDENT LIVING PROGRAM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
           VA'S INDEPENDENT LIVING PROGRAM--A PROGRAM REVIEW

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      WEDNESDAY, NOVEMBER 13, 2013

                               __________

                           Serial No. 113-45

                               __________

       Printed for the use of the Committee on Veterans' Affairs


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
85-870                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="90f7e0ffd0f3e5e3e4f8f5fce0bef3fffdbe">[email&#160;protected]</a>  

                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
DAVID P. ROE, Tennessee              CORRINE BROWN, Florida
BILL FLORES, Texas                   MARK TAKANO, California
JEFF DENHAM, California              JULIA BROWNLEY, California
JON RUNYAN, New Jersey               DINA TITUS, Nevada
DAN BENISHEK, Michigan               ANN KIRKPATRICK, Arizona
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MARK E. AMODEI, Nevada               GLORIA NEGRETE MCLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana

                       Jon Towers, Staff Director

                                 ______

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                      BILL FLORES, Texas, Chairman

JON RUNYAN, New Jersey               MARK TAKANO, California, Ranking 
MIKE COFFMAN, Colorado               Minority Member
PAUL COOK, California                JULIA BROWNLEY, California
BRAD R. WENSTRUP, Ohio               DINA TITUS, Nevada
                                     ANN M. KIRKPATRICK, Arizona

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                           November 13, 2013

                                                                   Page

VA's Independent Living Program--A Program Review................     1

                           OPENING STATEMENTS

Hon. Bill Flores, Chairman, Subcommittee on Economic Opportunity 
  (EO)...........................................................     1
    Prepared Statement of Hon. Bill Flores.......................    23
Hon. Mark Takano, Ranking Minority Member, Subcommittee on 
  Economic Opportunity (EO)......................................     2

                               WITNESSES

Daniel Bertoni, Director, Education, Workforce, and Income 
  Security, U.S. Government Accountability Office................     3
    Prepared Statement of Mr. Bertoni............................    24
Margarita Devlin, Acting Director, Vocational Rehabilitation and 
  Employment, Veterans Benefit Administration, U.S. Department of 
  Veterans Affairs...............................................     8
    Prepared Statement of Ms. Devlin.............................    31
Richard C. Daley, Associate Legislation Director, Paralyzed 
  Veterans of America (PVA)......................................    15
Paul R. Varela, Assistant National Legislative Director, Disabled 
  American Veterans (DAV)........................................    17
    Prepared Statement of Mr. Varela.............................    34

                       SUBMISSION FOR THE RECORD

U.S. Government Accountability Office............................    37


           VA'S INDEPENDENT LIVING PROGRAM--A PROGRAM REVIEW

                      Wednesday, November 13, 2013

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:32 p.m., in 
Room 340, Cannon House Office Building, Hon. Bill Flores 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Flores, Runyan, and Takano.

           OPENING STATEMENT OF CHAIRMAN BILL FLORES

    Mr. Flores. Good afternoon. The Subcommittee will come to 
order. I want to begin by thanking my friend Mr. Takano for 
participating in the two field hearings we held last week in 
Riverside, California and in Waco, Texas. I know I found them 
to be very informative, and I thank the Ranking Member for his 
assistance in making them a great success, along with the 
staffs for both sides that did a great job of putting this 
together.
    We are here today to conduct an oversight hearing on the 
Vocational Rehabilitation and Employment Service's independent 
living program. This program provides a wide array of services 
to the most severely wounded and disabled veterans who have 
disabilities that preclude them from working, but who can still 
use VA services to help them achieve a higher level of 
independent daily living. Our hearing today will focus on three 
major objectives: the results of a Government Accountability 
report on the independent living program that this Subcommittee 
requested last Congress; second, VA's steps to implement the 
recommendations of this report and other steps they are taking 
to improve the performance of the independent living program; 
and third, the view of this program at the local level from our 
veterans service organization partners, and how they believe we 
can better assist our most severely disabled veterans achieve 
maximum daily living.
    While I am encouraged that the recent GAO report found that 
89 percent of the veterans in their study eventually completed 
their independent living plans, they also found that there is 
increased need for oversight in this program. For example, when 
VA is unable to track simple performance metrics like counting 
in realtime the number of veterans in the independent living 
program, or provide an aggregate number of the types of 
benefits being provided to veterans through the program, 
something is not like it should be. I do not fault the VA's 
central office for many of these problems. I believe most of 
these issues stem from a lack of attention and resources that 
are provided to the VR&E Service by the Veterans Benefit 
Administration.
    GAO found that VR&E's computer tracking system is in 
serious need of an upgrade. But as GAO has mentioned in their 
written statement, VR&E officials do not expect to receive the 
funding needed for this upgrade for another three years. While 
I know that VBA is transfixed on improvements to the Veterans 
Benefit Management System, or VBMS, as we call it around here, 
to bring down the disability backlog, they cannot continue to 
drop the ball and lose sight of the fact that other important 
programs that serve our veterans need assistance as well. We 
saw this earlier this year when we had our hearing on the long 
term solution for G.I. Bill benefits where a simple investment 
could finish the job once and for all. The resources were 
transferred to adjust the disability backlog.
    Congress has never turned down VA's request for funding to 
improve computer systems which will help veterans and 
strengthen oversight. I hope to learn more about VA's plans to 
update their systems during this hearing.
    One other area that GAO has discussed in their report is 
the need to review cost controls and approval authority for 
large expenses within the independent living program. This 
point was crystallized by the revelation that a VA central 
office review was not needed for a VR&E office at the local 
level to authorize about $17,000 to be spent on a fishing boat 
motor and a trailer for a disabled veterans. I understand that 
learning to fish can certainly improve a veteran's independence 
and quality of life, but I think we can all find better ways to 
do this than to buy a $17,000 boat.
    I believe that this program has the ability to greatly 
improve the lives of veterans, but more work needs to be done 
to assure efficiency, improve performance, and to assure 
transparency through oversight.
    With that, I recognize the Ranking Member for his opening 
remarks.

    [The prepared statement of Hon. Bill Flores appears in the 
Appendix]

             OPENING STATEMENT OF HON. MARK TAKANO

    Mr. Takano. Thank you, Mr. Chairman. And I too appreciate 
the opportunity to work with you during the work session on our 
field hearings. In particular, I did enjoy the testimony of 
many of the witnesses in Waco on entrepreneurship. And I hope 
we can work together to improve entrepreneurship for our 
veterans.
    We are here today to find out how well the independent 
living services program at the VA is serving America's wounded 
warriors as they recover from their injuries, set goals, and 
work toward independent living. We will hear testimony from the 
VA Vocational Rehabilitation and Employment Program, and from 
two veterans service organizations whose primary mission is to 
serve the needs of disabled and paralyzed veteran 
servicemembers. We will also hear from the GAO, which has 
reviewed the program in detail and has made some clear 
recommendations.
    Of particular interest to me, are the VR&E plans to 
coordinate better with the Veterans Health Administration, so 
independent living counselors can meet the individual needs of 
each veteran. Because they are working with the most updated 
and accurate medical information technology can provide on each 
one.
    So thank you, Mr. Chairman, for scheduling this hearing 
today. And thank you to the witnesses and others for being 
here. I look forward to your testimony and to your answers to 
our questions.
    Mr. Flores. I thank the Ranking Member. I now would like to 
introduce the witness for our first panel. With us today is Mr. 
Daniel Bertoni with the U.S. Government Accountability Office. 
Mr. Bertoni, you are now recognized for five minutes.

     STATEMENT OF MR. DANIEL BERTONI, DIRECTOR, EDUCATION, 
WORKFORCE, AND INCOME SECURITY, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Bertoni. Thank you. Chairman Flores, Ranking Member 
Takano, Members of the Subcommittee, good afternoon. I am 
pleased to discuss the Department of Veterans Affairs 
Vocational Rehabilitation and Employment Programs independent 
living track which provides support and services to help 
veterans with disabilities live more independently when 
employment is not feasible. Last year, almost 3,000 veterans 
receive independent living assistance.
    My testimony is based on our June, 2013 report, discusses 
the characteristics of independent living track veterans and 
benefits received, the extent to which their plans were 
completed, and VR&E's management and oversight role.
    In summary, of the 9,215 veterans enrolled in the 
independent living track from fiscal years 2008 to 2011, 67 
percent were male, including Vietnam-era veterans in their 
fifties and sixties. Nearly 60 percent served in the Army. Less 
than one percent served in the National Guard or Reserves. The 
most prevalent disabilities among these veterans were PTSD and 
tinnitus, and more than three-quarters had a disability rating 
of at least 60 percent.
    VA has broad discretion in determining the types of 
independent living services it provides, and our work shows 
that a wide range of goods and services were involved. 
Counseling services and computers were most common. However, 
other services include the installation of ramps to improve 
home accessibility, and the purchase of gym memberships, 
camping gear, kitchen appliances, lawn tractors, snow blowers, 
and a motor boat and trailer.
    We estimate that VA spent nearly $14 million in benefits 
for those entering the IL track in fiscal year 2008. While the 
average cost was about $6,000 per veteran, per person totals 
ranged from $20 to over $33,000 for a veteran. About 89 percent 
of veterans were deemed by VA to be successfully rehabilitated. 
That is, to generally have completed their independent living 
plans which outlined the veterans' goals. About five percent 
were closed because plan goals were not met, and six percent 
remained open.
    Due to variations in case complexity, some plans were 
fairly easy for VA to close as rehabilitated, for example, by 
installing wider doors and bathtub rails, others were more 
difficult because they required a wide range of supports and 
services. Thus rehab rates varied across regional offices, 
ranging from 49 percent to 100 percent, with offices with 
larger case loads experiencing greater success.
    While veterans' independent living plans were completed in 
384 days on average, completion times also varied by region 
from a low of 150 days to a high of 895 days.
    We identified several areas where VR&E exercises limited 
management oversight. First, regional counselors were not 
consistently compliant with certain case management 
requirements, such as coordinating with VHA staff in securing 
health services for veterans. Thus some benefits were delayed, 
or VR&E provided benefits that should have come from VHA. We 
have recommended that VA explore options to improve 
coordination between VR&E and VHA regional personnel.
    We also found that VR&E's processes for reviewing and 
approving independent living expenditures may not be sufficient 
as regions were permitted to purchase a range of items without 
central office approval, some of which were costly, including 
$17,500 for a motor boat and trailer, and nearly $19,000 for a 
riding mower. We have recommended that VA consider enhancing 
its review and approval process for independent living 
expenditures.
    And finally, VR&E's case management system does not collect 
information on independent living costs, type of benefits 
purchased, and other data that could help ensure more 
consistent oversight. The agency also lacks accurate data on 
the number of veterans served. While current law allows VR&E to 
serve up to 2,700 veterans annually, the data used to monitor 
this cap are based on the number of plans developed, not on the 
number of actual veterans enrolled. Thus veterans with more 
than one plan are counted multiple times toward the cap, and 
VR&E lacks accurate information on the number being served at 
any given time. We have recommended that VA modify its systems 
to address this deficiency.
    In conclusion, the independent living track provides a 
broad range of supports and services to veterans. However, 
stronger central office oversight is needed to ensure program 
requirements are met, cases are administered consistently, 
expenditures for goods and services are appropriate, and 
critical data is collected. This will be increasingly important 
over the next several years, as more servicemembers transition 
to civilian life and veteran status, as the current veteran 
population ages, and as demand for services likely grows.
    Mr. Chairman, this concludes my statement. I will be happy 
to answer any questions that you or other Members of the 
Subcommittee may have. Thank you.

    [The prepared statement of Daniel Bertoni appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Bertoni. I will now recognize 
myself for five minutes for questions. Can you give us a little 
bit more information surrounding the case you reviewed where 
the VR&E officer approved the $17,500 for the boat and the 
trailer?
    Mr. Bertoni. Yes. I anticipated I might get a question on 
that, so yes.
    Mr. Flores. Let me expand on it a little bit, too. I mean, 
I am not trying to ask you to put yourself in the mind of the 
VR&E officer. But can you tell me what their logic was for 
approving an expenditure like this?
    Mr. Bertoni. I believe the case was a primarily PTSD claim, 
where the individual was suffering from some degree of social 
isolation. And that person in prior times was a fisherman, you 
know, so had a boat. But the current boat, to use their words, 
rotted away and he no longer had one. So the request was put 
in. At some point through the evaluation process, the VRC, 
vocational rehabilitation counselor, determined that that was 
one of the therapies or services the person would benefit from.
    We are not questioning that. I mean, we are not 
professionals in counseling, and we are not psychologists. Our 
point is that it is a substantial expense. It piqued our 
interest and some folks would say it potentially stretches the 
bounds of what this program is set up to do, or the services 
that should be provided. In our view, and from a basic internal 
control standpoint, when you are talking about expenditures in 
that amount, there should be another set of eyes on that and 
some concurrence that that is an appropriate strategy.
    Mr. Flores. Do you think they looked at alternatives, like 
maybe transportation to take him to a fishing pier? Or anything 
like that? Or did your study go that deep?
    Mr. Bertoni. I cannot speak to that. I think it is a 
possibility. They have to ask a range of questions. They have a 
pretty extensive questionnaire where they walk through many 
aspects of the person's life and how they might meet their 
needs.
    Mr. Flores. Okay. Thank you. Can you talk about, one of the 
things you found in your study, there is a wide variability 
from region to region in terms of the numbers, and how 
effective this is. Can you tell us what your findings were in 
terms of the findings about the variance in independent living 
from one region to another?
    Mr. Bertoni. Sure. Well we visited five regions, so we have 
a direct boots on the ground perspective from the folks there 
and what they are doing, and the level of effort and the 
outreach going on in each of those locations. But like I said 
from just a sheer numbers standpoint, we did see considerable 
variation in the numbers of IL plans, IL participants across 
the regions. We mentioned Montgomery, Alabama with over 900 
cases, and the Boston, Massachusetts office with eight. And it 
was somewhat perplexing in that they have similar 
concentrations of veterans in that state and in that area.
    Mr. Flores. And when you peeled back the layers of the 
onion, did you find any reason for that? I mean, did you, I 
mean, is there anything that came out in your study as to why 
one region would have a lot higher----
    Mr. Bertoni. A little bit. I mean, we could take this only 
so far as we could take this and still get you a product in a 
reasonable amount of time. But we think we placed a lot of good 
data and observations on VA's doorstep to peel back the onion 
even further. But I would say, you know, variation can be due 
to a lot of things. They talked about specialized care in some 
areas, so maybe veterans were going to other places in these 
areas. We did speak to some folks on the ground and they talked 
about sort of outreach and activism from the veterans service 
representative community. So there are a range of factors. I 
think that is something that we would ask VR&E to delve further 
into. We just could not go very far in this review.
    Mr. Flores. And can you elaborate on your recommendation 
that the VR&E coordinate better with the VHA and other parts of 
VBA to reduce overlap and improve performance?
    Mr. Bertoni. Sure. In the course of our case file review, 
we noticed instances where there seemed to be a coordination or 
communication breakdown between VR&E and VHA staff. Where 
referrals were being sent and not answered, VR&E staff, having 
to, at some point move ahead, provide the service that appeared 
to be a medical service that probably would be best provided by 
VHA but ultimately VR&E provided that service. Also in our 
visits to the region it was a fairly consistent theme that this 
cooperation and coordination could be improved. Beyond that, we 
felt there was enough evidence to ask central office to look at 
how this can be improved, whether it be with training, or 
additional instructions, fast letters, etcetera.
    Mr. Flores. Okay. Thank you, Mr. Bertoni. I now recognize 
the Ranking Member for five minutes.
    Mr. Takano. Thank you, Mr. Chairman. Mr. Bertoni, in your 
estimation, was VA ever at risk of exceeding the 2,700 cap?
    Mr. Bertoni. At risk? Well the data shows that in the four 
years that we looked at, they had not exceeded it. I do not 
know, I mean, some have said that the agency has slowed or held 
cases back towards the end of the year. We did not, that was 
not part of our scope. We do know that they did not get close 
to that cap in any given year since 2008. Our concern is that 
the data that they are using to monitor the cap is inaccurate. 
They are counting plans, not people. We found 408 veterans that 
had more than one plan, some of them had three, some of them 
had four plans. And they were counting these people, these 
plans as people. So in excess of 500 veterans were included in 
this caseload when this number of veterans really did not 
exist, they were plans. So right now, they are severely 
overcounting.
    Mr. Takano. So my next question is----
    Mr. Bertoni. I should not say severe, they are 
overcounting.
    Mr. Takano. Your answer may have just answered my next 
question, which was, did veterans, any veterans, miss out on 
getting independent living services because the VA counts plans 
instead of veterans served?
    Mr. Bertoni. Regardless of how you count, whether you are 
counting plans or people, because they were under the cap, I 
would say, any veteran who asked and was eligible for the 
program likely did not. You know, they did not ever hit the cap 
where they had to officially turn anybody away. Our concern, is 
that should we get an influx of new veterans, we have about a 
million veterans coming back over the next several years, 
should you get that influx, you could have a lot more folks 
vying for these services and you could approach that cap. And 
you should at least have accurate data on how many veterans you 
are serving.
    Mr. Takano. Well related to that data, should the VA update 
the CWINRS or develop a new IT program?
    Mr. Bertoni. Absolutely, we have a recommendation. CWINRS, 
which is a case management system that might not be the best 
vehicle to do this with. But some systems enhancements need to 
occur in terms of tracking the types of benefits being 
provided, the costs of those benefits, and also they need to 
build in better edit checks into the system. So information is 
consistently entered, and they know exactly what they are 
providing.
    Mr. Takano. Can you help me--thank you for that. Can you 
tell me what limits there are to the type of services or goods 
that can be provided by the IL program?
    Mr. Bertoni. Pardon?
    Mr. Takano. What limit to the type of service or goods that 
can be provided by the Independent living program?
    Mr. Bertoni. Under the current law it is, I believe it says 
something to the effect whatever the Secretary deems necessary 
and appropriate. So it is a wide open----
    Mr. Takano. So it is wide discretion?
    Mr. Bertoni. Wide discretion, absolutely. And if you look 
at our report, we looked at 182 cases. We listed every service 
provided in our report, it is in the back. It is a broad range 
of services that were provided some of which, like I said, 
piqued our interest.
    Mr. Takano. We went over the example of the trailer and the 
boat. But have all goods and services provided to veterans been 
beneficial to the veteran as far as you can tell?
    Mr. Bertoni. That is difficult to say. I guess, you know, I 
would have to look at the specific case to determine why a snow 
blower would be beneficial; why a double oven would be 
beneficial. It would have to be on a fact and circumstances 
basis, going in and looking at the rationale as to why this 
person received this service. I cannot say whether everyone 
benefitted. It is somewhat subjective. And to make that link 
between if I give this person a boat, a snow blower, or some 
other lawn mower, how does that translate to greater 
independent living? That is the sort of subjective area that 
was difficult for us to sort of delve into.
    Mr. Takano. Okay. Mr. Chairman, thank you. I yield back.
    Mr. Bertoni. Thank you. Mr. Runyan, you are recognized for 
five minutes.
    Mr. Runyan. Thank you, Mr. Chairman. Mr. Bertoni, when you 
conducted the study, did you get a sense of what the 
participants' view of the program was? And do they believe that 
the goals that the VA set truly led them to rehabilitation?
    Mr. Bertoni. We did not directly speak with participants in 
the programs. We did speak with VSOs. I think the VSOs believe 
that this is a worthwhile program; that it provides a lot of 
worthy services. Again, whether everything that is being done 
translates to greater independence in terms of living in the 
community, that linkage, that causal linkage is in my view 
difficult to establish.
    Mr. Runyan. Does the VA track that on the back end?
    Mr. Bertoni. Well they have criteria. Basically, their 
criteria for a successful rehabilitation is that the person met 
all the goals in their plan. I will give you an example. The 
New York office gives 90 percent of IL participants a computer 
and computer lessons. If you purchase the computer, you take 
the lessons, they check you off as being rehabbed and you are 
down the road. Have you achieved greater independence? I do 
not, you know, I cannot say. All I know is that this 
constitutes success to VA. And they have a 93 percent success 
rate.
    Mr. Runyan. That kind of answered my next question, 
discussing how hard it is to track the rates. And I know, I 
think just by what you just said there, that it is another 
subjective area. That, you know, your instance of using the 
computer, does that do anything once they have completed that?
    Mr. Bertoni. I will give you another example. I think the 
Hartford, Connecticut office, the same thing. 90 percent of 
individuals receive a computer and computer training. They have 
a 99 percent success rate. It seems a fairly straightforward, 
simple plan. We saw variation in the plan. Some very narrow, 
some very complex. And you wonder at some point if, have these 
counselors figured out, hey, if I go too complex it is going to 
kill my performance goals. If I keep it narrow I am going to do 
better in terms of the performance goals. So there is always 
potential perverse incentives when you introduce performance 
goals. But if you look at the St. Petersburg office and their 
emphasis is on volunteer services. Getting people interacting 
within the community, substantively, you know, participating. 
And you would think that would be difficult, more difficult 
than a computer, definitely more complex, and it probably is. 
And their rehab rate is 78 percent. Is that bad? Are they doing 
a bad job? You have to look at what they are offering, and, you 
know, the substance of these plans. And we think that is 
something that VA, VR&E, based on what we found, the next 
generation of their analysis, that is where they should be 
looking.
    Mr. Runyan. Thank you. Chairman, I yield back.
    Mr. Flores. Thank you, Mr. Runyan. If there are no other 
questions, Mr. Bertoni you are excused. Thank you for your 
appearance today and we appreciate the insight that you shared 
with us.
    With that, we will bring up the second panel.
    Mr. Bertoni. Thank you.
    Mr. Flores. On our second panel we have Ms. Margarita 
Devlin, who is the Acting Director of Vocational Rehabilitation 
and Employment Service of VA. Ms. Devlin, you are now 
recognized for five minutes. Thank you for joining us today.

STATEMENT OF MS. MARGARITA DEVLIN, ACTING DIRECTOR, VOCATIONAL 
REHABILITATION AND EMPLOYMENT, VETERANS BENEFIT ADMINISTRATION, 
              U.S. DEPARTMENT OF VETERANS AFFAIRS

    Ms. Devlin. Mr. Chairman, Ranking Member, and Members of 
the Subcommittee, thank you for inviting me to appear before 
you today to discuss the independent living services provided 
by the Department of Veterans Affairs Vocational Rehabilitation 
and Employment Program, or VR&E. The primary mission of the 
VR&E program is to assist servicemembers and veterans with 
service-connected disabilities to prepare for, find, and keep 
suitable jobs. For those with service-connected disabilities so 
severe that they cannot immediately consider work, the VR&E 
program offers independent living, or IL, services to improve 
their ability to live as independently as possible.
    Through an initial vocational assessment, a VBA Vocational 
Rehabilitation counselor evaluates an individuals' interests, 
aptitudes and abilities and determines entitlement to a program 
of services. Many individuals with severe disabilities are able 
to prepare for employment and independent living services may 
be provided as part of their employment plans. My testimony 
today, however, will focus on those individuals whose 
disabilities are so severe that they cannot consider employment 
and their total rehabilitation plan is focused on independent 
living services.
    To be eligible for a program of solely IL services, a 
veteran or servicemember must have a minimum of 20 percent 
service-connected disability rating; have a serious employment 
handicap; and have a determination by a counselor that 
employment is not feasible for them. If IL needs are identified 
during the course of our preliminary IL assessment, the 
counselor will conduct a more comprehensive IL assessment, 
usually in the individual's home. Following these assessments, 
the individual may be provided IL services if he or she has 
limitations that impact daily living activities, can benefit 
from independent living services, and can be expected to 
maintain achieved gains in independence after services have 
ended. The number of new IL cases is currently limited to 2,700 
per fiscal year.
    IL services are outlined in an individualized plan of 
services which may include assistive technology, adaptive 
equipment, IL skills training, improved access to the home and 
community, assistance with finding appropriate volunteer 
activities, services to decrease social isolation, and 
assistance in accessing services from VA and non-VA service 
providers. A counselor develops the plan of services and 
provides assistance and support to enable the individual to 
achieve his or her IL goals.
    In June 2013, GAO completed a study of VR&E's IL services 
and made three recommendations based on their findings. In 
their first recommendation, GAO recommended that VBA work with 
the Under Secretary for Health to enhance coordination to 
ensure IL track veterans needs are met by VHA in a timely 
manner. VA agrees with this recommendation. VBA and VHA have 
been working on a project to automate medical and dental 
referrals for VR&E participants through the CAPRI system. Using 
an automated referral system rather than a paper based system 
will expedite services and allow for better tracking of 
referrals. The systems enhancements are complete and a pilot of 
the new capability began in September of 2013. Upon completion 
of the pilot, VBA and VHA intend to move towards national 
implementation of the new automated process.
    GAO's second recommendation focused on implementing an 
oversight approach that enables VR&E to better ensure 
consistent administration of the IL track across regions. VBA 
is exploring whether or not we have capability, under our 
current system, to generate ad hoc reports that will address 
data needs in this area. VBA will also consider preparing 
business requirements for enhancements to CWINRS, VR&E's case 
management system, for implementation in future years.
    GAO's third recommendation was to reassess and consider 
enhancing the agency's policy concerning the required level of 
approval for IL track expenditures. VBA finds merit in 
reassessing the current policy to identify areas that can be 
strengthened. Existing policy includes multiple levels of cost 
threshold approvals, but there may be room to improve 
consistency in determining the types of IL goods and services 
veterans receive. With the assistance of contractor expertise, 
VBA is conducting a detailed review of the IL program to 
include benchmarking against other programs. An initial report 
is scheduled to be completed in the first quarter of 2014, and 
VBA will use the results of this study to determine the best 
way to implement GAO's recommendation.
    In conclusion, VR&E's IL services are designed to meet the 
rehabilitation needs of veterans and servicemembers with severe 
disabilities. Given this special target population, those men 
and women who sacrificed so much for our country, VR&E is 
dedicated to ensuring that our services prove very effective in 
improving their independence and daily living. We have 
developed advanced training, we have conducted significant 
oversight, and constantly seek to improve the services we 
provide.
    Mr. Chairman, this concludes my statement. I would welcome 
any questions you might have.

    [The prepared statement of Margarita Devlin appears in the 
Appendix]

    Mr. Flores. Thank you, Ms. Devlin. It sounds like you have 
been pretty proactive in dealing with the GAO report. The 
Subcommittee appreciates that. To follow up on one of the areas 
I did not hear you address, or maybe I missed it, as Mr. 
Bertoni said there was wide variance in the implementation of 
the IL program from one area to another. What sort of a 
response do you have about that? I mean, what are the 
underpinnings of that from your perspective?
    Ms. Devlin. VA has actually been looking at that issue for 
several years. Starting in 2011, we conducted a review of the 
percentage of stations' workload that focused solely on 
independent living cases. Typically, the percent of independent 
living workload nationally is about two and a half percent. So 
what we did was look at which stations fell well below the two 
and a half percent mark. We also looked at stations that were 
considerably higher than the national average, and we did 
special reviews of their IL files. We also reviewed in those 
stations with historically lower utilization, the applicants to 
the program in general, because veterans do not apply to the 
independent living program, they apply to the VR&E program and 
then they receive a track of services based on their needs. So 
we looked at cases where veterans had applied and not received 
any services to see if any veterans might have been turned away 
that could have benefitted from independent living services.
    We found no instances where veterans had been turned away 
who should have received independent living services in any of 
those stations. If anything, we found procedural areas for 
improvement, and we recommended training or other corrective 
actions for those stations. But we did not find turning away of 
veterans who should have been provided services.
    So VA is embarking on an outreach plan in 2014 because we 
do feel that there is some merit to a finding that stations 
with increased outreach in independent living services receive 
increased demand for those services. So we are embarking on 
that in 2014, specifically targeting those offices where there 
is low utilization to try to increase awareness of services.
    Mr. Flores. Okay. It also sounds like there was wide 
variability in terms of the services that are provided, or 
services is not the right word, but the modalities that were 
used from one area to another in terms of trying to deal with 
veterans to help them achieve that maximum level. What does the 
agency do to share best practices from one area to another? Or 
do you have a program like that to share best practices?
    Ms. Devlin. We do. In fact the study that we are conducting 
currently with the help of a contractor is really looking at 
every single station and conducting a survey of all staff 
across all stations, and giving us feedback and recommendations 
for possible improvements in consistency. I also want to just 
point out the fact that the independent living program is very 
tailored to a specific veteran's individual needs. And as you 
look at the regions in which they live, whether it is primarily 
a big city type of an environment versus a rural environment, 
they might have very different needs. So that is another factor 
to consider.
    Mr. Flores. Okay. With that I, let us see, I think I do 
have one more question. Tell us a little bit more about the 
training modules that VR&E has created for the independent 
living program, and in particular, do these modules have 
testing requirements at the end of the training? And what 
repercussions will there be if a VR&E counselor does not 
complete these modules by the end of fiscal year 2014?
    Ms. Devlin. We have multiple trainings around the 
independent living program. For new voc rehab counselors that 
come into VA there is a two-hour, self-paced course. It is a 
new counselor training performance support system that includes 
two hours of independent living training. In September of 2013, 
we also conducted a one-hour extra training session on 
independent living. The TPSS, the Training Performance Support 
Systems, do include testing during the course of the module and 
the tests have to be passed. If the test is not passed, the 
counselor must go back and relearn or retake the module until 
they can pass the test. Also in September of 2013, we deployed 
a 15-hour advanced independent living training performance 
support system module and that will be for all counselors who 
have completed the precursor, which would be the new counselor 
training. All counselors will be required to take this 15 hour 
advanced independent living training, which also includes tests 
throughout the modules.
    Mr. Flores. Okay. My next question will take a little bit 
longer. I think what we will do is, we will just have a second 
round. And with that, I would recognize the Ranking Member for 
five minutes.
    Mr. Takano. Thank you, Mr. Chairman. Ms. Devlin, has the VA 
ever slowed applications to the independent living program with 
the intent of not exceeding the cap?
    Ms. Devlin. We have not even come close to the cap in many 
years. I do know that there was one year where we came close 
and we did ask all regional offices to send their requests for 
independent living programs up to VA central office for review 
and approval in the event that we did hit the cap and would 
need to prioritize the more severely disabled individuals 
first. And so those, while we did not slow it down, we did turn 
the approval process over to VACO to ensure that we could 
monitor it more closely.
    Mr. Takano. Is it true that each plan made by the VA for 
veterans counts toward, well I think you have answered this 
question, it is true that a plan by the VA for veterans counts 
toward the mandatory cap even though a veteran may have more 
than one plan? Is that right?
    Ms. Devlin. That is correct, although it is rare that a 
veteran would have more than one plan in the same fiscal year.
    Mr. Takano. Do you think that there would be more 
participation in the program if the cap were removed? You say 
you have not come close to it. But is there any sense that that 
cap inhibits participation?
    Ms. Devlin. I think that it is something that we carefully 
monitor, and the counselors in the field are very well aware 
that we monitor it. We do inform the field if we are getting 
close to the cap. If that does happen, it is usually not until 
the end of the fiscal year. However, I would say as we conduct 
our outreach efforts in 2014, I would anticipate a higher 
demand for independent living and we would have to reassess it 
as we go through the year to see if we get close to the cap.
    Mr. Takano. Some of the veterans service organizations have 
complained that it takes VA a long time to provide home 
modifications to terminally ill veterans. Is this a policy that 
is under review? And does it take the VA a long time to approve 
such modifications?
    Ms. Devlin. I am not aware of such delays. However, anytime 
a veteran has significant circumstances that would require 
expeditious service, and if the counselor is made aware of 
that, for example terminally ill veterans, we would certainly 
expedite to the greatest extent of our capability. Construction 
can take time by the mere fact that it is construction, and to 
be done right, it would take some time. But the approval 
process should not be delayed and in fact can be expedited. We 
have expedited cases in the past for such reasons.
    Mr. Takano. Okay. As I asked Mr. Bertoni, the issue of the 
IT needs, and he cited the inadequacy of data. In your view, is 
CWINRS meeting all of the IT needs for the independent living 
program?
    Ms. Devlin. There is always room for improvement with any 
IT system. We are looking at possible modifications to the 
system to enable us to put tighter controls and more careful 
monitoring on IL expenditures. And we are looking at that for 
future years.
    Mr. Takano. So you do not have any more specifics about the 
plan now to share with the Committee?
    Ms. Devlin. We do not have all of those requirements 
identified yet. However, what we have done is look at whether 
there are fields within the current system that can be used to 
more carefully monitor those expenditures through ad hoc 
reports. So what we are looking at now in terms of expediting a 
possible implementation, is what can we do with the current 
system as it stands today, while we develop our requirements 
for the future.
    Mr. Takano. Mr. Chairman, thank you and I yield back. And I 
am going to have to depart early.
    Mr. Flores. Okay. Thank you, Mr. Takano. Mr. Runyan, you 
are recognized for five minutes.
    Mr. Runyan. Thank you, Mr. Chairman. Ms. Devlin, just kind 
of going back into oversight. In the report, it says with 57 
regional offices, VR&E is doing about 12 site visits a year. 
That means that each RO is only being visited about once every 
five years. Do you believe that that is an effective way to 
track performance? And should you be conducting more site 
visits?
    Ms. Devlin. The site visits that VR&E conducts are just one 
part of our oversight for independent living and for the other 
tracks of our program. We also conduct specialized quality 
assurance reviews of CER files, which is the veteran's 
Counseling Evaluation and Rehabilitation file. We conduct 
special reviews specifically for independent living cases above 
and beyond our standard quality assurance, which is done as a 
random sample of all cases in all tracks. So in addition to the 
12 site visits, we conduct regular quality assurance reviews 
and specialized independent living reviews throughout the year. 
We also do targeted reviews, as I mentioned earlier, where we 
look at stations that have historically low or high utilization 
of IL by doing targeted pulls at those stations to ensure that 
they are following proper procedures.
    Mr. Runyan. Now you touched on this, I think when answering 
one of the Chairman's questions. But there is a, in different 
ROs, there is a huge variation in days to complete their goal. 
Is that because of what the actual task or the modality is? Or 
is it something internally within that structure and that 
region and who is running that program?
    Ms. Devlin. There could be a variety of reasons for the 
length of time that a veteran takes to complete his or her 
program. It could be in part because of the services provided, 
some of those services might require lengthier periods of 
service delivery. It could also be in part because of the 
veteran's own circumstances and needing to take time off from 
participating in the plan due to family or medical issues. But 
the primary reason, I would say, would be because of the type 
of services provided.
    Mr. Runyan. And kind of in the oversight kind of realm, 
understanding that it can be difficult to meet with each IL 
participant every month, has the VA utilized other technologies 
such as Skype or video conferencing as an alternative to face-
to-face communication?
    Ms. Devlin. We are actually working on that now. We have 
conducted a pilot to test secure video technology to allow the 
counselors to conduct some of their sessions with veterans by 
video counseling. That pilot has gone really well. Veterans 
have reacted very well to it as well as our counselors. We are 
now in the process of determining how we would deploy that 
nationally beyond a pilot.
    Mr. Runyan. Thank you, Chairman. I yield back.
    Mr. Flores. Thank you, Mr. Runyan. I would like to have a 
round of follow up questions, if I could. The GAO report 
stated, and as you acknowledged, the CWINRS IT system has some 
shortcomings. In particular, its tracking performance of the 
VR&E participants is flawed and, you know, because it is 
counting plans instead of participants. Are there any other 
limitations that you became aware of as a result of the GAO's 
report? I mean, you talked about the expense tracking. Anything 
else that we need to know about?
    Ms. Devlin. We are always looking for opportunities to 
improve the system. So anytime an audit, whether external or 
internal is conducted, we are always looking for opportunities 
to improve the system. More recently, one of the changes that 
we made just in the last quarter of 2013, is to change how our 
case status system progresses. A veteran who is in the 
independent living program, for example, and because of changes 
in circumstances, disability conditions, or anything else that 
might change that veteran's life during the course of 
participating in the program, they might need to redevelop 
their plan. And so in order to redevelop that plan, in the 
past, we had to move the case to a different status and then 
reroute it back into independent living status. And so it would 
look like there were two plans, when in effect, it was one 
veteran really just getting their plan adjusted for their new 
services.
    The change that we made, which just went into CWINRS, is to 
make it more of a linear process. So that once the veteran 
enters independent living program status, they stay in that 
status, even if their services change.
    Mr. Flores. Okay. In terms of making improvements to VBMS, 
the changes that we talked about that would improve these 
systems, you were non-specific as to timing. I mean, I would 
like to press on you a little bit. What is the timing of trying 
to make these changes?
    Ms. Devlin. We hope to actually capitalize on the VBMS 
system because it is paperless, and VR&E is currently a very 
paper intensive organization. We have paper files and very 
little of the veteran's progress is recorded in the IT system. 
So one of the things we want to do is be strategic about our 
progression and actually capitalize on the VBMS system. We need 
to build requirements that will not create a separate system 
that does not communicate with VBMS. We are very reliant on 
Compensation service-connected disability decisions. Therefore, 
it would behoove us to make sure that we capitalize on the VBMS 
system and build a system that would work with it, as opposed 
to separate from it.
    Mr. Flores. So what is the best prediction you could give 
me today as far as timing? I know you do not want to answer 
that, so----
    Ms. Devlin. Well the budget cycle works in two-year cycles. 
So we would hope that in the next two to three years, we would 
be able to implement these changes.
    Mr. Flores. Okay. If we were to help VA make this a 
priority, how quickly could you get this done if we, you know, 
Congress said, hey, we think you need to make this a priority. 
What is the fastest track that you could see this happening?
    Ms. Devlin. Well with any IT development, we would need to 
acquire the services of a qualified contractor to----
    Mr. Flores. Not CGI, though.
    Ms. Devlin. Sorry?
    Mr. Flores. Not CGI.
    Ms. Devlin. I would have to take that for the record and 
see how long it would take us to implement those changes.
    Mr. Flores. Okay. If you could respond supplementally, that 
would be great. And then my last minute and 27 seconds, the 
question that you have been anxiously awaiting for, can you 
walk us through what you think was going on in the mind of the 
VR&E counselor that approved the boat and the one that approved 
the lawn mower?
    Ms. Devlin. So not having the details of those cases before 
me, I can only speak to the general principles that I would see 
as appropriate behind those cases. If a veteran, because of 
disability conditions, can no longer conduct the basic care of 
their home, for example taking care of their lawn, it is 
conceivable that we would want to help that veteran to not have 
to rely on family members or on other people to help them 
accomplish those tasks. And if they did not have the equipment 
to perform those tasks, we might want to help them attain that 
equipment.
    Similarly, with the boat, I can only say that if the 
veteran previously used to have an activity of fishing that was 
enjoyable and actually helped them with their symptoms of PTSD 
by lessening those symptoms, and now they can no longer perform 
those activities, I would imagine the counselor was trying to 
return that veteran to sort of a pre-disability condition; a 
pre-disability condition status of being able to have 
meaningful activity in their life and reduce their symptoms.
    Those cases were actually from 2008. Since 2008, we have 
actually implemented a multitude of different procedures that 
would change the way those cases were handled today.
    Mr. Flores. Okay. Mr. Runyan, would you have any questions? 
Okay. Thank you, Ms. Devlin for your testimony. I appreciate 
you coming up with, being proactive and responding to the GAO 
report. You are now excused.
    We are going to invite our third panel to the witness table 
at this point. On this final panel, we will have Mr. Richard 
Daley with Paralyzed Veterans of America and Mr. Paul Varela 
with Disabled American Veterans. Mr. Daley, when you are ready 
we would like to recognize you for five minutes.

   STATEMENTS OF MR. RICHARD C. DALEY, ASSOCIATE LEGISLATION 
DIRECTOR, PARALYZED VETERANS OF AMERICAN (PVA); AND MR. PAUL R. 
   VARELA, ASSISTANT NATIONAL LEGISLATIVE DIRECTOR, DISABLED 
                    AMERICAN VETERANS (DAV)

                 STATEMENT OF RICHARD C. DALEY

    Mr. Daley. Chairman Flores, Members of the Subcommittee, 
Paralyzed Veterans of American thanks you for the opportunity 
to present our views on the VA's Vocational Rehabilitation and 
Employment Programs independent living service. PVA appreciates 
that you are reviewing the program intended to help veterans 
that sustain serious disabilities that may inhibit their 
progress as they begin or continue their rehabilitation. We 
support the Committee's concern and effort as it recommends and 
approves that the men and women who have honorably served their 
Nation are making an effort to transition back to the civilian 
world.
    Information from the recent GAO report highlights some 
issues that will require attention and continued oversight of 
this important VA program. The independent living program was 
established by Congress in 1980 as part of Vocational 
Rehabilitation and Employment. Although employment for the 
veteran should be a goal for VR&E, those veterans with serious 
disabilities requiring extensive rehabilitation before 
considering employment, or who may never be employable, will 
qualify and benefit from the independent living program.
    The original independent living program was a pilot program 
authorized by Congress 33 years ago with a limit or a cap of 
500 veterans admitted each year. That cap has been increased 
several times to the current total of 2,700 veterans per year. 
Military service, including overseas combat, does not place a 
limit or a cap on serious injuries that take place while 
serving the Nation. For this reason, the authors and supporters 
of the independent budget have asked Congress to consider 
removing the cap.
    The flexibility of the IL program allows a VR&E counselor 
and the veteran to decide what is needed at the time to best 
accommodate their rehabilitation or improve their quality of 
living. Using IL programs common practice eight to ten years 
ago for terminally ill veterans that were diagnosed with ALS 
and MS to make small modifications to their homes. Since the VA 
has existing programs to make modifications on a home to 
practice of using IL funds was discontinued. Unfortunately, 
these veterans with service-connected conditions may have only 
months to live. To assist the veteran in their final months, 
the IL plan would arrange and provide for funding for 
modifications to the home so the veteran could spend their 
remaining days with their family. The majority of the 
situations required a small modification such as widening of a 
bathroom door or a ramp. The problem with the existing programs 
for home modifications, completing the work often takes 12 to 
24 months. The veteran may not have 24 months to live.
    After realizing the time required for the VA to make the 
modifications, often the veteran takes out a loan to have the 
work completed. The veteran spends their last months at home 
regardless of the VA's policy. PVA believes that the use of the 
IL funds for terminally ill veterans was within the mission of 
helping achieve maximum independence.
    During a quarterly meeting of VSOs recently, the VA 
discussed a program of expediting the modifications for homes, 
realizing that their existing programs were not working. The 
current process contains inspections, approvals, reinspections, 
reapprovals, construction delays. The VA must figure out a way 
to streamline this process for terminally ill veterans because 
the current system is not working.
    PVA service officers and employment rehabilitation 
counselors regularly work with veterans who participate in the 
IL program. In my written testimony, I have included some 
examples of the creative use of this program. One of them was, 
I have heard reference to the oven and it may the case that I 
listed here, in Atlanta, Georgia that was a few years ago. 
Where the veteran did a lot of baking from his wheelchair. He 
rolled up to the oven, he put the door down, and he constantly 
burnt his legs, going to the VA clinic for burned legs. So they 
said, for a small fee, they had an oven with a fold out, 
sideway open door so that the veteran could continue baking. 
There are other creative uses of the IL program that help the 
veteran. You know, they do not solve all the problems, but they 
help them from the initial stages to continuing to, you know, 
decide whether they should decide on a work program, or take an 
educational program, or they give them that little bit of 
assistance that they need. So we strongly support the program.
    That concludes my testimony. I am happy to answer any 
questions you may have.
    Mr. Flores. Thank you, Mr. Daley. Mr. Varela, you are 
recognized for five minutes.

                  STATEMENT OF PAUL R. VARELA

    Mr. Varela. Chairman Flores, Congressman Runyan, thank you 
for inviting DAV to testify at today's hearing on VA's 
independent living program, one of five tracks offered through 
Vocational Rehabilitation and Employment Services. As the 
newest member of DAV's legislative staff, I look forward to 
working with this Subcommittee to help fulfill our promises to 
the men and women who served.
    Before accepting my assignment, I worked for a decade as a 
DAV national service officer in New York and Los Angeles. Like 
all DAV NSOs, I myself participated in and completed a VR&E 
rehabilitation plan. I have repeatedly been trained on all VR&E 
programs, including the independent living program, and I 
regularly refer veterans to voc rehab programs whenever 
appropriate.
    As you can imagine, Mr. Chairman, DAV is a staunch 
proponent of the program, as we are for all voc rehab programs 
because they embody DAV's central purpose of empowering 
veterans to lead high quality lives with respect and dignity.
    This program in particular, is uniquely designed to provide 
disabled veterans with serious employment handicaps who are 
currently unlikely to benefit from one of the four employment-
related tracks, the opportunity lead more fulfilling and 
independent lives. Whether they have lost limbs, sustained 
severe burns, or suffer from debilitating mental disorders such 
as Post-Traumatic Stress Disorder, this program was created to 
help these men and women become more independent in their daily 
lives, to interact with families and in communities, and find 
greater purpose and meaning in their lives. Considering all 
they have sacrificed for us, it is the least that a grateful 
Nation can offer them.
    To improve the independent living program, Congress must 
remove the cap. VR&E must increase outreach and awareness 
efforts both internally and externally. VBA must incorporate 
VR&E into VBMS as soon as possible, and the Department of 
Veterans Affairs must improve cooperation with VR&E from VA 
offices and programs.
    First, when the IL program was initially created as a pilot 
in 1980, it had a hard cap of 500 participants. But over the 
years that number has risen to 2,700 participants. While we 
appreciate the fiscal constraints and budgetary concerns that 
Congress must address, we believe that a cap is an arbitrary 
limit. There is little or no data available to determine how 
many veterans would or could benefit from the program. Some 
VR&E officials we have talked with believe that the cap 
discourages some ROs from promoting the program. DAV believes 
that if the independent living program is the right track for a 
seriously disabled veteran, it should be available without any 
arbitrary limit. The cap must be removed.
    Second, in order to maximize the benefits of the program, 
VR&E must significantly enhance its internal and external 
awareness and outreach efforts. We understand VR&E is preparing 
to distribute literature throughout VA facilities and is 
creating a new web-based training element. That is a great step 
in the right direction, but to be effective, this training must 
be repeated at regular intervals. And we would recommend that 
it should be part of the skill certification process. We also 
recommend that VBA include information about entitlement to 
vocational rehabilitation services in all appropriate 
correspondence with eligible veterans.
    Third, DAV recommends that VR&E's IT needs be addressed 
through the new Veterans Benefits Management System, commonly 
known as VBMS. We agree with GAO that VR&E's current IT system 
does not meet its current needs and limits its oversight 
abilities. It fails to capture some of the most basic data and 
information, including the number of program participants, how 
much money is spent on individual independent living services, 
or even the aggregate totals each year. VA must request and 
Congress must approve sufficient funding for IT development and 
deployment of VBMS to include vocational rehabilitation as soon 
as technically feasible.
    Fourth, VR&E must develop and receive greater cooperation 
from other VA offices, including the Veterans Healthcare 
Administration, Prosthetic and Sensory Aid Service, Specially 
Adapted Housing, and Home Improvement and Structural Alteration 
Programs. Despite the fact that these are all VA programs and 
offices, GAO and others have reported that coordination and 
cooperation can often be difficult. All of these offices work 
for the same department and should be serving the interests of 
veterans. If they are unable or unwilling to work together 
effectively, the Secretary and Congress must take appropriate 
actions to make them do so.
    Finally Mr. Chairman, despite the management and oversight 
challenges discussed in our testimony, and the GAO report, we 
continue to believe the independent living program is an 
essential, appropriate, and empowering benefit that has and 
should continue to make a tremendous difference in the lives of 
thousands of veterans every year. We strongly encourage you to 
continue examining ways to improve this program. DAV stands 
ready to work with this Subcommittee in any way we can to offer 
our expertise, assistance, and support.
    This concludes my testimony, and I would be happy to answer 
any questions you may have.

    [The prepared statement of Paul R. Varela appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Varela. I now recognize myself 
for five minutes for questions. The first question is for each 
of you and it is a matter of prioritization. Each of you had 
several things that you recommended that the VA do. And so, I 
would ask you this, we will start with you, Mr. Daley, what is 
the one thing that Congress would do today that would help 
improve the IL program?
    Mr. Daley. Well as you said, there are several things. They 
probably, lifting the cap is one thing that the veterans 
organizations all support. Now will that immediately improve? 
No, it will not. But at least it will open the program up to 
more people. I, when we say cap I like to think of it as cliff. 
You know, as they approach that, they are never going to get, 
they are never going to go off that. There would be terrible 
consequences from the national office if they ever go over 
2,700. So anywhere when they get to 2,000, they start slowing 
down. So removing the cap would be one positive thing for the 
overall program and for veterans in the future.
    Mr. Flores. Mr. Varela, what is the one thing that Congress 
would do that would help the VA improve the IL program?
    Mr. Varela. We would agree with PVA in that the cap should 
be removed.
    Mr. Flores. Okay. What is the second thing that we could 
do? Let us start with, Mr. Varela you have got the microphone, 
so keep going. So we will come back to you, Mr. Daley.
    Mr. Varela. Thank you, Chairman Flores. Increase outreach 
and awareness about the program, informing veterans of the 
potential for that benefit through vocational rehabilitation, 
and making sure when they go online to visit the VA, that 
information is there, how to apply. Making people aware of the 
program to include, to include those VR&E counselors by 
providing them with the training to administer the program 
properly.
    Mr. Flores. Mr. Daley, what is the second thing that 
Congress could do?
    Mr. Daley. Well let me quote my colleague there exactly. 
Outreach. You have got to have more people aware of it, and 
more people will apply for it and ask for it. And the 
counselors, they need more training. They need to be aggressive 
in using the program. Probably some counselors do not 
understand it totally, so they do not use it, and other 
counselors, you know, for years I have always heard that well, 
the St. Petersburg office uses the program all the time. 
Atlanta, Georgia used it all the time. Some other offices do 
not use it.
    Mr. Flores. Right.
    Mr. Daley. I do not know why. They are still getting 
disabled veterans at the other offices. But apparently people 
who, at those offices that use it a lot, they understand the 
program, they like the program, they are comfortable, and they 
use it for the veteran's benefit.
    Mr. Flores. I would like to get a couple more questions in 
a limited amount of time. What types of services do each of 
your organizations offer to veterans over and above what the IL 
program includes? Mr. Daley, we will start with you and try to 
keep your answer short if you could. Do you all, does your 
organization offer any----
    Mr. Daley. Yes. We have an employment program that we run 
in seven of the VA hospitals, and we have a vocational 
rehabilitation person right there in the hospital that works 
with the veteran, the recently injured veteran. Because, as I 
said in my testimony, it is important to kind of get their mind 
set that life can continue on. They can get a job someday, go 
back to school.
    Mr. Flores. Okay. Mr. Varela?
    Mr. Varela. DAV provides direct access to information in 
the regional offices, out on the road with our mobile service 
vehicles, inside hospitals as well. Also, that is an ingrained 
part of our training program. So when veterans come to us, that 
is something that our counselors are familiar with and can 
refer them appropriately to VR&E.
    Mr. Flores. Okay. Mr. Daley, this question is for you. In 
your written statement, you discuss the lack of coordination 
between VHA and VBA, and how it can adversely affect disabled 
veterans, especially those who only have a few months to live. 
Can you expand on what you put in that written statement?
    Mr. Daley. Well often, if they are looking for, to look 
some type of recommendation, they have to get advice from VA, 
the medical people and the attending doctor as far as the 
condition of the veteran to decide whether their recommendation 
will actually benefit or not. And often, there is no response 
at all, which is hard to understand why. But that did not apply 
to modifications, but that is just adaptations or appliances or 
equipment that they may benefit from.
    Mr. Flores. Okay. I have a couple of more questions, but we 
will wait and do a second round. Mr. Runyan, you are recognized 
for five minutes if you have any questions.
    Mr. Runyan. Thank you, Mr. Chairman. Mr. Daley, kind of 
what the Chairman was talking about, and you were talking about 
adaptation of housing or whatever. Is there a significant 
amount of time that the local municipality may have in changing 
someone's home on top of what you said with the VBA and getting 
the doctors the approval. We know that process takes, can you 
expand on that a little bit?
    Mr. Daley. As far as the local municipality, you mean as 
far as getting codes----
    Mr. Runyan. Building codes, and----
    Mr. Daley. Well, some of the modifications probably would 
not take building codes. If the person just wants their 
bathroom door made eight or 12 inches wider so they can get in 
there with their wheelchair, I think, I do not know whether you 
would have to----
    Mr. Runyan. So you are suggesting most of this is internal 
in the VA?
    Mr. Daley. Internal, yes, sir. Yes. It is not external. It 
is the VA process. Which works, if you have time to wait. And I 
understand them wanting to account for the money out of the 
right pool of money, out of Home Modifications. But these 
veterans are dying. You know?
    Mr. Runyan. And Mr. Varela, just talking a little bit, you 
know, I know we are talking about the cap and all this. But I 
asked a question to both the GAO and the VA, talking about what 
constitutes true rehab? And in your experience with your 
members, do they come to you and say this works, this does not 
work? Because it does not seem like there is a follow up metric 
from the VA side to really say, this time, we just completed 
the program, but there is nothing to say that maybe there needs 
to be, you know, more things done down the road. Do you have a 
sense of that within your membership?
    Mr. Varela. Congressman, in my experience, when we have 
referred individuals to vocational rehabilitation, we did not 
send them down there to examine independent living services 
specifically. We sent them down there to see what benefits 
could be provided through VR&E. And we had a lot of good 
feedback in Los Angeles from the VR&E program. So on the 
surface, it appeared that they were receiving the services that 
could be provided. We did not get a lot of push back from our 
clients that VR&E was not giving them what they were seeking. 
So that was based on my experience in Los Angeles.
    Mr. Runyan. Just the whole discussion raises the question, 
in my head, from a clinical aspect, is what they were trying to 
accomplish, did it get accomplished? I do not think a lot of 
those answers have been, are even available. But I just throw 
that out there and I yield back, Mr. Chairman.
    Mr. Flores. Okay. Thank you, Mr. Runyan. One final question 
for Mr. Varela. You had some suggestions on what the VA could 
do to their IT system that tracks the IL participants and the 
services that VR&E provides. Could you go into a little more 
detail on the improvements you would like to see?
    Mr. Varela. First, we just want to be clear that we do not 
want any money wasted. We want to make sure that every dollar 
is spent appropriately. Unfortunately, the current system that 
they have, does not give them that oversight ability. So what 
that system ultimately looks like, that is still up for 
discussion. But we would gladly offer our input if it is 
sought. We would be more than happy to work with the 
Subcommittee.
    It needs to be integrated with VBMS at some point in time 
because that is the future. Unfortunately as it stands, now a 
veteran can go online, file for disability compensation and 
other benefits, but you cannot do that with vocational 
rehabilitation. So there is a disconnect there. And I do not 
know that we can wait two or three years to do that.
    Mr. Flores. Okay. If you would not mind, if you could send 
us, supplementally, the recommendations you would have for the 
IT system that has to do with voc rehab, that would be helpful 
to us.
    Okay, I would like to thank the third panel for their 
testimony today, and thank you for the services that you 
provide to our Nation's veterans. I am assuming that no other 
Member has additional questions. In closing, I urge the VA in 
the strongest possible terms to prioritize the funding and the 
improvements for CWINRS, and to address the issues raised by 
the GAO. It sounds like they are off to a good start. But in 
particular, it sounds like the IT programs need to be 
prioritized.
    As I mentioned in our hearing earlier this year on the long 
term solution for G.I. Bill claims that we have got the same 
issue there, that system needs to be made a priority in terms 
of the IT funding allocations within the VA. So the VA needs to 
make sure that they are taking steps to not ignore the needs of 
other vital VA programs while they continue to tackle the 
disability backlog.
    Finally, I ask unanimous consent that all Members have five 
legislative days to revise and extend their remarks and include 
any extraneous material in the record of today's hearing. 
Hearing no objection, so ordered.
    If there is nothing further, this hearing is adjourned. 
Thank you.

    [Whereupon, at 3:38 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

                 Prepared Statement of Hon. Bill Flores

    Good morning and the Subcommittee will come to order. I want to 
begin by thanking my good friend Mr. Takano for participating in the 
two field hearings we held last week in Riverside, CA, and Waco, TX. I 
know I found them to be very informative and I thank the Ranking Member 
for his assistance in making them a great success.
    We are here today to conduct oversight over the Vocational 
Rehabilitation and Employment (VR&E) service's independent living 
program. This program provides a wide array of services to the most 
severely wounded and disabled veterans who have disabilities that 
preclude them from working, but can still use VA's services to help 
them achieve a higher level of independent daily living.
    Our hearing today will focus on three major objectives:

    <bullet>  The results of a Government Accountability Office (GAO) 
report on the Independent Living Program that this Subcommittee 
requested last Congress;
    <bullet>  VA's steps to implement the recommendations of this 
report and other steps they are taking to improve the performance of 
the I.L. program; and
    <bullet>  The view of this program at the local level from our 
veteran service organization partners, and how they believe we can 
better assist our most severely disabled veterans achieve maximum daily 
living.

    While I am encouraged that the recent GAO found that 89% of the 
veterans in their study eventually completed their independent living 
plans, they also found that there is a need for increased oversight 
over this program.
    For example, when VA is unable to track simple performance metrics 
like counting, in realtime, the number of veterans in the independent 
living program or provide an aggregate number of the types of benefits 
being provided to veterans through the program . . . something is 
wrong.
    I don't fault VA Central Office staff for many of these problems. I 
believe many of these issues stem from the lack of attention and 
resources that are provided to the VR&E service by the Veterans Benefit 
Administration (VBA).
    GAO found that VR&E's computer tracking system is in serious need 
of an upgrade, but as GAO has mentioned in their written statement, 
VR&E officials don't expect to receive the funding needed for this 
upgrade for another 3 years.
    While I know that VBA is transfixed on improvements to the Veterans 
Benefits Management System (VBMS) to bring down the disability backlog, 
they can't continue to drop the ball and lose sight of the fact that 
other important programs that serve our veterans need assistance as 
well.
    We saw this earlier this year with our hearing on the Long Term 
Solution for G.I. Bill benefits, where a simple investment could finish 
the job once and for all, but resources were transferred to disability 
backlog.
    Congress has never turned down VA's request for funding to improve 
computer systems, which will help veterans and strengthen oversight. I 
hope to learn more about VA's plans to update their systems today.
    One other area that GAO discussed in their report is the need to 
review cost controls and approval authority for large expenses within 
the independent living program.
    This point was crystallized by the revelation that VA Central 
office review was not needed for a VR&E officer at the local level to 
authorize $17,500 for the purchase of a glass-pro fishing boat, motor, 
and trailer for a disabled veteran.
    I understand that learning to fish can certainly improve a 
veteran's independence and quality of life, but I think we can all 
think of better ways to teach veterans this skill than purchasing a 
$17,500 boat.
    I believe that this program has the ability to greatly improve the 
lives of veterans, but more work needs to be done to ensure efficiency 
and improve performance.
    With that, I recognize the Ranking Member for his opening remarks.

                                 <F-dash>
                  Prepared Statement of Daniel Bertoni

    Chairman Flores, Ranking Member Takano, and Members of the 
Subcommittee:
    I am pleased to discuss our recent work on the Department of 
Veterans Affairs' (VA) Vocational Rehabilitation and Employment 
Program's (VR&E) Independent Living (IL) ``track.'' \1\ The IL track is 
one of five tracks administered by VR&E and provides non-employment 
related benefits--such as counseling and assistive devices--to help 
veterans with service-connected disabilities live more independently 
when employment is not a feasible goal. \2\ In fiscal year 2011, almost 
3,000 veterans nationwide were served through VR&E's IL track.
---------------------------------------------------------------------------
    \1\ The VR&E program refers to each of the five possible courses of 
action it provides to veterans as a ``track.''
    \2\ The other four tracks administered by VR&E are intended to help 
veterans prepare for, find, and maintain suitable employment. These 
tracks include (1) Reemployment, (2) Rapid Access to Employment, (3) 
Self-Employment, and (4) Employment Through Long-Term Services.
---------------------------------------------------------------------------
    Currently, there are 56 VA regional offices with responsibility for 
administering the IL track. Each office has a VR&E Officer who is 
responsible for ensuring compliance with national policies and 
performance standards, and for supervising Vocational Rehabilitation 
Counselors (VRCs) who work directly with veterans to assess their IL 
needs and provide benefits. The law allows VR&E broad discretion in 
determining the types of services that can be provided to address 
veterans' IL needs. \3\ When assessing each veteran, VR&E focuses not 
only on assisting veterans with activities of daily living, \4\ but 
also on their emotional needs and avocational and leisure interests, 
among other areas. \5\ An individualized IL plan, which is developed 
for each veteran admitted into the IL track, identifies the veteran's 
IL goals, the goods and services VR&E will provide to help the veteran 
meet his or her goals, and estimated time frames for providing the 
goods and services, among other areas. In general, timeframes for IL 
plans may not exceed 24 months, except under certain circumstances. \6\ 
Under VA regulations, VR&E may declare a veteran successfully 
``rehabilitated'' when all goals in their IL plan have been achieved, 
or if they meet other conditions. \7\ Therefore, ``rehabilitation'' 
does not necessarily mean that the veteran's disabilities have 
improved, but rather that the goals developed in their IL plan to 
facilitate independence have been met. When veterans are not 
successfully rehabilitated, their case may be closed as 
``discontinued.'' VR&E can also temporarily ``interrupt'' a veteran's 
case when circumstances arise that affect the provision of the goods 
and services. Because there is no statutory limit on the number of IL 
plans a veteran can have, officials told us that veterans can reapply 
to the VR&E program at any time and start another IL plan. \8\ However, 
unlike VR&E's four employment-related tracks, the number of veterans 
who can be admitted into the IL track annually is limited by the law. 
While this number has increased over the years, the cap was set at 
2,600 veterans in fiscal year 2011, and 2,700 in fiscal year 2012. \9\
---------------------------------------------------------------------------
    \3\ Under 38 U.S.C. Sec.  3120(d), a veteran's IL program ``shall 
consist of such services . . . as the Secretary determines necessary to 
enable such veteran to achieve maximum independence in daily living.''
    \4\ Activities of daily living are basic activities that 
individuals perform on a daily basis, such as bathing, feeding, and 
dressing themselves.
    \5\ According to VA officials, IL services that support emotional 
needs and/or avocational and leisure interests may be included in IL 
plans only when gains in independence are an anticipated result.
    \6\ 38 U.S.C. Sec.  3105(d), 38 C.F.R. Sec.  21.76(b). An 
additional period of 6 months is allowed if it would enable veterans to 
substantially increase their level of independence in daily living. In 
addition, VR&E may extend the duration up to 36 months for veterans 
with severe disabilities who served on active duty after September 11, 
2001. 38 U.S.C. Sec.  3105(d)(2)(A)(ii) and Department of Veterans 
Affairs, Veterans Benefits Administration, Extension of Independent 
Living Services related to the Veterans Benefits Improvement Act of 
2008 (Public Law 110-389), VR&E Letter 28-09-10 (January 30, 2009).
    \7\ VR&E may declare a veteran successfully ``rehabilitated'' when 
all goals in their IL plan have been achieved, or if not all achieved, 
when the following three conditions have been met: (1) the veteran has 
attained a substantial increase in the level of independence; (2) the 
veteran has maintained the increased level of independence for at least 
60 days; and (3) further assistance is unlikely to significantly 
increase the veteran's level of independence. 38 C.F.R. Sec.  
21.283(e).
    \8\ Specific criteria must be met before approving new plans for IL 
services. These criteria include meeting requirements for participation 
in a program of IL services, and the worsening of the veteran's 
condition or other changes in the veteran's circumstances resulting in 
a substantial loss of independence. 38 C.F.R. Sec.  21.284(b).
    \9\ The Veterans' Benefits Act of 2010 increased the cap to 2,700 
effective ``with respect to fiscal years beginning after the date of 
enactment of this Act.'' Pub. L. No. 111-275, Sec.  801, 124 Stat. 
2864, 2888. Because the enactment date of the Act was October 13, 2010, 
which is in fiscal year 2011, the cap of 2,700 veterans would have 
become effective starting in fiscal year 2012.
---------------------------------------------------------------------------
    My remarks today are based on our report, which was released on 
June 7, 2013, and describes (1) the characteristics of veterans in the 
IL track, and the types and costs of benefits they were provided; (2) 
the extent to which their IL plans were completed, and the time it took 
to complete them; and (3) the extent to which the IL track has been 
administered appropriately and consistently across regional offices. 
\10\ To obtain this information, we reviewed relevant federal laws and 
regulations; standards for internal controls and managerial cost 
accounting; as well as VR&E policies, procedures, and other relevant 
studies and documentation. We also interviewed VA officials and veteran 
service organizations, and visited VA regional offices in San Diego, 
California; Atlanta, Georgia; Detroit, Michigan; Philadelphia, 
Pennsylvania; and the District of Columbia. In addition, we analyzed VA 
administrative data and used statistical models to determine any 
differences in rehabilitation times. Moreover, we reviewed the case 
files of a random, generalizable sample of 182 veterans who were 
assigned to the IL track at some point during fiscal year 2008. We 
conducted this work in accordance with generally accepted government 
auditing standards. Those standards require that we plan and perform 
the audit to obtain sufficient, appropriate evidence to provide a 
reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives. A 
more detailed explanation of our methodology is available in our 
report.
---------------------------------------------------------------------------
    \10\ GAO, VA Vocational Rehabilitation and Employment Program: 
Improved Oversight of Independent Living Services and Supports Is 
Needed, GAO-13-474 (Washington, D.C.: June 7, 2013).
---------------------------------------------------------------------------
The IL Track Mainly Serves Older Veterans and Provides a Wide Variety 
        of Benefits
    From fiscal years 2008 through 2011, the typical participant in the 
IL track was a male Vietnam-era veteran. Of the 9,215 veterans who 
entered the IL track in these years, most (67 percent) were male and 50 
years old or older. Most women in the IL track were in their 40s or 
50s. Most of the 9,215 IL track veterans served in the Vietnam War; 
relatively few served in the Global War on Terrorism as part of 
Operation Enduring Freedom or Operation Iraqi Freedom. \11\ In 
addition, most (60 percent) IL track veterans served in the U.S. Army, 
and less than 1 percent served in the National Guard or Reserves. More 
than three-quarters of IL track veterans had a combined service-
connected disability rating of at least 60 percent, and 34 percent had 
a disability rating of 100 percent. Regardless of disability rating 
level, the most prevalent disabilities among this group were post-
traumatic stress disorder (PTSD), tinnitus (``ringing in the ears''), 
and hearing loss.
---------------------------------------------------------------------------
    \11\ In fiscal year 2011, 46 percent of the 9,215 IL track veterans 
served in the Vietnam War, whereas 16 percent served in the Global War 
on Terrorism.
---------------------------------------------------------------------------
    Furthermore, our review of the case files of 182 randomly selected 
IL track veterans in fiscal year 2008 shows that they were provided a 
wide range of goods and services, from individual counseling and the 
installation of ramps to a boat, camping gear, and computers. The most 
common type of goods or services were related to counseling, education 
and training, and computer and camera equipment. \12\ For all veterans 
who entered the IL track in fiscal year 2008, we estimated that VR&E 
purchased a total of almost $14 million in goods and services. The 
average spent per IL track case that year was nearly $6,000.
---------------------------------------------------------------------------
    \12\ For a detailed list of goods and services provided to IL track 
veterans, see GAO-13-474.
---------------------------------------------------------------------------
Most Veterans Were ``Rehabilitated'' but within Varying Time Frames

    We found that most (about 89 percent) of IL track veterans who 
began only one plan during fiscal year 2008 were classified by VR&E as 
``rehabilitated''--i.e., successfully reaching and maintaining the 
goals identified in their IL plan--by the end of fiscal year 2011. At 
the same time, about 11 percent of cases were either ``discontinued''--
i.e., closed by VR&E because the rehabilitation goals in the veteran's 
IL plan were not completed--or were still active cases. Of the IL cases 
that had been discontinued, the reasons included the veteran declining 
benefits, not responding to VA's attempts to contact them, worsening 
medical conditions, and death. We also found that some IL plans were 
easier to close as rehabilitated than others, due to the varied nature 
and complexity of IL plans, which are based on veterans' individual 
disabilities and needs. For example, one IL plan we reviewed for a 
veteran with rheumatoid arthritis only called for the purchase and 
installation of eight door levers and a grab rail for the bathtub to 
facilitate his independence. However, another IL plan we reviewed 
called for providing a veteran who used a wheel-chair with medical, 
dental, and vision care as needed, and about $24,000 in modifications 
to the veteran's home, including modifying the veteran's bathroom, 
widening doors and modifying thresholds, and installing an emergency 
exit ramp in a bedroom.
    While the overall IL rehabilitation rate nationwide was 89 percent 
for veterans who started an IL plan in fiscal year 2008, the rate 
varied by regional office, from 49 to 100 percent. \13\ About two-
thirds of regional offices rehabilitated 80 percent or more of their 
2008 IL track veterans by the end of fiscal year 2011. In addition, 
VR&E's IL rehabilitation rate was higher in regional offices with 
larger IL caseloads. Among veterans who entered the IL track in fiscal 
year 2008, an average of 90 percent were rehabilitated at offices with 
more than 25 IL entrants, compared to an average of 79 percent at 
offices with 25 or fewer IL entrants. \14\
---------------------------------------------------------------------------
    \13\ We excluded the Washington D.C. Regional Office--now referred 
to as the National Capital Region Benefits Office--because only two 
veterans entered the IL track during fiscal year 2008. One IL case was 
discontinued, and the other was open at the end of fiscal year 2011.
    \14\ Twenty-six regional offices had more than 25 veterans enter 
the IL track during fiscal year 2008, while 30 offices had 25 or fewer 
veterans enter the IL track during the same time period. Two offices 
had no IL track entrants that year.
---------------------------------------------------------------------------
    Furthermore, in fiscal year 2008 IL veterans nationwide completed 
their IL plans in an average of 384 days (about 13 months); however, we 
found that the length of time to rehabilitate these veterans varied by 
regional office from a low of 150 days at the St. Paul Regional Office 
to a high of 895 days at the Roanoke Regional Office. \15\ At most 
regional offices (49 of 53), however, the average number of days to 
complete veterans' IL plans ranged from 226 to 621 days (8 to 21 
months). \16\ To control for various factors that could influence 
rehabilitation time frames, we used a statistical model to estimate the 
amount of time it would take certain groups of IL track veterans to 
complete their IL plans. \17\ The results of our model show differences 
across regional offices in the amount of time it takes for veterans to 
become rehabilitated based on caseload. More specifically, the chance 
of rehabilitation within 2 years was less than 50 percent at 4 offices, 
between 50 and 90 percent at 18 offices, and 90 percent or higher at 16 
offices. Veterans served by regional offices with large IL caseloads 
generally had a higher probability of completing an IL plan more 
quickly than a veteran served by an office with a small IL caseload 
(see fig 1).
---------------------------------------------------------------------------
    \15\ The St. Paul Regional Office had nine veterans enter the IL 
track during fiscal year 2008, while the Roanoke Regional Office had 
two veterans enter that year.
    \16\ We reported the average time to complete IL plans for 53 of 
VA's 56 regional offices because two offices did not have veterans 
begin the IL track in fiscal year 2008. Another office had two IL track 
veterans begin during this period, but these veterans were not 
``rehabilitated.''
    \17\ Our model controlled for type and severity of disability and 
other demographic characteristics, among other factors. For additional 
information on the methodology we used for our statistical analysis, 
see our report (GAO-13-474).

[GRAPHIC] [TIFF OMITTED] T5870.001

VR&E Exercises Limited Oversight of the IL Track
    We identified four key areas where VR&E's oversight of the IL track 
was limited: (1) ensuring compliance with case management requirements, 
(2) monitoring regional variation in IL track caseload and benefits 
provided, (3) adequacy of policies and procedures for approving 
expenditures on goods and services for IL track veterans, and (4) 
availability of critical program management information.

Regional Offices May Not Be Complying with VR&E Case Management 
        Requirements
    Certain VR&E case management requirements were not being met by 
some regional offices. For example, based on our review of VR&E's site 
visit monitoring reports, we found that some Vocational Rehabilitation 
Counselors (VRCs) were not fulfilling VR&E's requirement to meet in-
person each month with IL track veterans to monitor progress in 
completing their IL plans. \18\ VRCs told us that this requirement is a 
challenge due to the size of their caseloads and the distances that 
they may have to travel to meet with veterans. Furthermore, while VR&E 
and the Veterans Health Administration (VHA) both have policies that 
require them to coordinate on the provision of goods and services for 
IL track veterans, we found that some VRCs experience challenges in 
doing so. \19\ Several VRCs in the regions we interviewed indicated 
that when they refer IL track cases to VHA physicians, the physicians 
do not respond or they respond too late. As a result, services for IL 
track veterans are delayed or purchased by VR&E instead of VHA. In our 
review of 182 IL track case records, we found some instances where VR&E 
purchased goods and services that appear to be medically related, such 
as ramps and grab bars, which could have been provided by VHA. In 
response, we recommended VA explore options for enhancing coordination 
to ensure IL track veterans' needs are met by VHA, when appropriate, in 
a timely manner. VA concurred and stated that it was piloting an 
automated referral system that would allow VR&E staff to make referrals 
to VHA providers and check on their status electronically.
---------------------------------------------------------------------------
    \18\ VR&E's policy manual states that contact via telephone, email, 
or mail can be used as alternatives when necessary. Department of 
Veterans Affairs, Vocational Rehabilitation and Employment, Chapter 9: 
Guidelines for the Administration of An Independent Living Plan, VR&E 
manual, Part IV, Section C, Chapter 9.
    \19\ Specifically, VA regulations governing VR&E's IL track require 
that if a veteran needs special equipment and is eligible for such 
equipment under another VA program, the items will be provided under 
that program. See 38 C.F.R Sec.  21.216(b). In addition, VHA's policy 
directive for coordinating with VR&E is intended to ensure that all 
VR&E participants, including those in the IL track, receive timely 
access to VHA health care services. See Department of Veterans Affairs, 
Veterans Health Administration, VHA Directive 2010-022, Vocational 
Rehabilitation: Chapter 31 Benefits, Timely Access to Health Care 
Services (May 14, 2010).
---------------------------------------------------------------------------
VR&E Does Not Systematically Monitor Variation in IL Caseload and 
        Benefits Provided
    VR&E does not systematically monitor variation in IL track caseload 
size and benefits across its regional offices. We found that the total 
IL track caseload for fiscal years 2008 through 2011 ranged from over 
900 cases in the Montgomery, Alabama Regional Office to 4 cases in the 
Wilmington, Delaware Regional Office. In addition, we found that some 
regions developed IL plans that addressed a broad range of needs while 
others elected to develop more focused plans that provided fewer 
benefits to achieve VR&E's rehabilitation goal. VR&E has relied on the 
information provided through its general quality assurance (QA) 
activities \20\ and a series of periodic ad hoc studies to oversee the 
administration of the IL track. Because these activities are limited in 
scope, frequency, and how the information is used, we noted that they 
may not ensure consistent administration of the IL track across 
regions. In response, VR&E officials commented that QA results are 
analyzed to determine trends, and make decisions about training content 
and frequency.
---------------------------------------------------------------------------
    \20\ A team of VR&E QA staff at the national level perform periodic 
site visits to each VA regional office at least every 3 years, although 
officials told us they have not been able to meet this goal in recent 
years because of budgetary constraints. This team also periodically 
reviews a sample of veterans' records from VR&E's IL and employment 
tracks in selected regions, and produces a report for the particular 
region under review.
---------------------------------------------------------------------------
VR&E's Policy for Approving IL Track Expenditures May Not Be Adequate
    VR&E's current policy for approving IL track expenditures may not 
be adequate, considering the broad discretion VR&E provides to regions 
in determining and purchasing goods and services. While officials told 
us that VRCs are required to include all cost estimates when they 
submit veterans' IL plans to be reviewed and approved by the region's 
VR&E Officer, VR&E's written policy and guidance do not explicitly 
require this for all IL expenditures. Thus, regional offices have the 
ability to purchase a broad range of items without any Central Office 
approval, resulting in some offices purchasing goods and services that 
may be questionable or costly. (See table 1 for the level of approval 
required for IL expenditures.) In one case we reviewed, VR&E Central 
Office approval was not required for the purchase of a boat, motor, 
trailer, and the boat's shipping cost, among other items, totaling 
about $17,500. In another case we reviewed, VR&E Central Office was not 
required to approve total expenditures of $18,829 for a riding lawn 
mower--which VR&E's current policy prohibits \21\--and other IL goods 
and services including a bed, bed frame, desktop computer, and 
woodworking equipment. Without appropriate approval levels, VR&E's IL 
track may be vulnerable to potential fraud, waste, and abuse. \22\ In 
our report, we recommended that VA reassess and consider enhancing its 
current policy concerning the required level of approval for IL track 
expenditures. VA concurred with our recommendation and said it will use 
the results of an internal study to determine if changes are needed to 
its existing cost-review policies or procedures. VA stated that any 
necessary changes should be implemented by March 2014.
---------------------------------------------------------------------------
    \21\ While officials told us that the provision of riding lawn 
mowers was not specifically prohibited by VR&E's policy in 2008, its 
current policy states that tractors or mowers should not be approved as 
a mobility aid. See Department of Veterans Affairs, Veterans Benefits 
Administration, Purchase of Vehicles for Vocational Rehabilitation & 
Employment (VR&E) Participants under 38 U.S.C. Chapter 31 is 
prohibited, VR&E Letter 28-13-08 (November 6, 2012).
    \22\ To guard against fraud, waste, abuse, and mismanagement, 
standards for internal control in the federal government emphasize the 
need for agencies to have appropriate levels of supervision and 
controls in place to prevent one individual from having responsibility 
for all key aspects of a transaction or event. GAO, Internal Control 
Management and Evaluation Tool, GAO-01-1008G (Washington, D.C.: August 
2001).

[GRAPHIC] [TIFF OMITTED] T5870.002

VR&E Lacks Critical IL Track Information for Oversight
    VR&E's case management system--commonly referred to as ``CWINRS'' 
\23\--does not collect or report critical program management 
information that would help the agency in its oversight 
responsibilities. More specifically, this system does not collect and 
maintain information on:
---------------------------------------------------------------------------
    \23\ VR&E has used the CWINRS system since 2001 to track veteran 
cases through its process and to manage program costs. The ``WINRS'' 
part of the acronym represents the first 5 regional offices that tested 
the original system. These offices include Waco, Texas; Indianapolis, 
Indiana; Newark, New Jersey; Roanoke, Virginia; and Seattle, 
Washington.

    <bullet>  Costs of IL goods and service purchased: The system does 
not collect information on the total amount of funds VR&E expends on IL 
benefits. VR&E aggregates costs across all its tracks, despite VA's 
managerial cost accounting policies that require the costs of products 
and services to be captured for management purposes. \24\ Federal 
financial accounting standards also recommend that costs of programs be 
measured and reported. \25\ According to VA officials, cost information 
is not collected on the IL track alone because they view the five 
tracks within VR&E as a single program with the same overarching goal--
to help veterans achieve their employment goals. We previously reported 
on this issue in 2009. At that time, we found that VR&E's five tracks 
do not share the same overarching goal. Therefore, we concluded that 
VR&E should not combine track information. \26\
---------------------------------------------------------------------------
    \24\ VA's policy states that managerial cost accounting should be 
performed to measure and report the costs incurred by the agency. 
Specifically, each administration and its units should identify the 
cost of products and services provided. The goal of this effort is to 
identify the product or service at the level in which it is rendered to 
an external customer, such as a veteran receiving benefits from a VA 
program. Department of Veterans Affairs Managerial Cost Accounting: VA 
Financial Policies and Procedures, volume III, chapter 3 (July 2010).
    \25\ Managerial cost accounting is a fundamental part of an 
agency's financial management system, and each agency and its units 
should report the costs of their activities on a regular basis. This 
cost information can be used by Congress and federal executives in 
making decisions about allocating federal resources, authorizing and 
modifying programs, and evaluating performance. The cost information 
can also be used by program managers in making managerial decisions to 
improve operating economy and efficiency. Statement of Federal 
Financial Accounting Standards 4: Managerial Cost Accounting Standards 
and Concepts.
    \26\ GAO, VA Vocational Rehabilitation and Employment: Better 
Incentives, Workforce Planning, and Performance Reporting Could Improve 
Program, GAO-09-34 (Washington, D.C.: January 26, 2009).
---------------------------------------------------------------------------
    <bullet>  Types of IL benefits provided: The system does not 
collect information on the types of IL benefits provided to veterans in 
a standardized manner that can be easily aggregated and analyzed for 
oversight purposes. In several of the IL track cases we reviewed, the 
goods and services purchased were grouped together under a general 
description, such as ``IL equipment'' or ``IL supplies,'' without any 
further details. In addition, we found that controls for data entry 
were not adequate to ensure that all important data were recorded. \27\ 
For example, we estimated that the service provider field was either 
missing or unclear for one or more services in about 15 percent of all 
IL cases that began in fiscal year 2008.
---------------------------------------------------------------------------
    \27\ Standards for internal control emphasize the need to have 
controls over computerized information systems to ensure the data 
entered is complete and accurate (GAO-01-1008G). In addition, GAO's 
federal information system controls audit manual states that agencies 
should establish procedures to provide reasonable assurance that all 
inputs into the application have been authorized, accepted for 
processing, and accounted for; and any missing or unaccounted for 
source documents or input files have been identified and investigated. 
GAO, Federal Information System Controls Audit Manual (FISCAM), GAO-09-
232G (Washington, D.C.: February 2009).
---------------------------------------------------------------------------
    <bullet>  Number of IL veterans served: The system does not provide 
VR&E with the information it needs to monitor its statutory entrant cap 
and program operations. The law allows VR&E to initiate ``programs'' of 
independent living services and assistance for no more than a specified 
number of veterans each year, which, as of 2012, was set at 2,700. \28\ 
In analyzing VR&E's administrative data, we found that VR&E counts the 
number of IL plans developed annually rather than the number of 
individual veterans admitted to the track. Because multiple IL plans 
can be developed for an individual veteran during the same fiscal year, 
veterans with multiple plans may be counted more than once toward the 
statutory cap. As a result, VR&E lacks complete information on the 
number of veterans it is serving through the IL track at any given 
time--information it could use to better manage staff, workloads, and 
program resources, and ensure that it can effectively manage its cap.
---------------------------------------------------------------------------
    \28\ 38 U.S.C. Sec.  3120(e). According to agency officials, ``IL 
plans'' are the same as ``programs'' of independent living services and 
assistance.

    Similar to our report's findings, VR&E's 2012 evaluation of CWINRS 
has shown that the system limits VR&E's oversight abilities and does 
not capture all important data elements to support the agency's 
``evolving business needs.'' \29\ Officials told us that they plan to 
modify CWINRS, and that the new system modifications will enable them 
to individually track veterans served through the IL track. However, we 
found that the CWINRS redesign will not enable VR&E to obtain data on 
IL track expenditures or the types of goods and services provided. At 
the time of our review, no specific time frames were provided for the 
CWINRS redesign, but officials noted it could take up to 3 years to 
obtain funding for this effort. In our report, we recommended that VA 
implement an oversight approach that enables VR&E to better ensure 
consistent administration of the IL track across regions. This approach 
would include ensuring that CWINRS (1) tracks the types of goods and 
services provided and their costs, (2) accounts for the number of IL 
track veterans being served, and (3) contains stronger data entry 
controls. VA concurred with our recommendation and stated that 
discussions of system enhancements and the development of ad hoc 
reports are ongoing. The agency also will be considering a new 
oversight approach as part of an internal study.
---------------------------------------------------------------------------
    \29\ Department of Veterans Affairs, Vocational Rehabilitation and 
Employment (VR&E) Case Management Portal Project, Version 1.0, Case 
Management Portal, Business Requirements Document (September 26, 2012).
---------------------------------------------------------------------------
    In conclusion, strengthening oversight of VR&E's IL track is 
imperative given the wide range of goods and services that can be 
provided under the law to help veterans with service-connected 
disabilities improve their ability to live independently when 
employment is not feasible. More attention at the national level can 
help ensure that IL track case management requirements are met, the 
track is administered consistently across regions, expenditures for 
goods and services are appropriate, and critical information is 
collected and used to ensure veterans' IL needs are sufficiently 
addressed.
    Chairman Flores, Ranking Member Takano, and Members of the 
Subcommittee, this concludes my prepared remarks. I would be happy to 
answer any questions that you or other members of the subcommittee may 
have.

Contacts and Staff Acknowledgments
    For further information regarding this testimony, please contact 
Daniel Bertoni at (202) 512-7215, or at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7a181f080e1514131e3a1d1b15541d150c54">[email&#160;protected]</a> Contact 
points for our Office of Congressional Relations and Public Affairs may 
be found on the last page of this statement. Individuals who made key 
contributions to this testimony include Clarita Mrena (Assistant 
Director), James Bennett, David Chrisinger, David Forgosh, Mitch 
Karpman, Sheila McCoy, James Rebbe, Martin Scire, Ryan Siegel, Almeta 
Spencer, Jeff Tessin, Jack Warner, and Ashanta Williams.

    This is a work of the U.S. government and is not subject to 
copyright protection in the United States. The published product may be 
reproduced and distributed in its entirety without further permission 
from GAO. However, because this work may contain copyrighted images or 
other material, permission from the copyright holder may be necessary 
if you wish to reproduce this material separately.

GAO's Mission
    The Government Accountability Office, the audit, evaluation, and 
investigative arm of Congress, exists to support Congress in meeting 
its constitutional responsibilities and to help improve the performance 
and accountability of the federal government for the American people. 
GAO examines the use of public funds; evaluates federal programs and 
policies; and provides analyses, recommendations, and other assistance 
to help Congress make informed oversight, policy, and funding 
decisions. GAO's commitment to good government is reflected in its core 
values of accountability, integrity, and reliability.
Obtaining Copies of GAO Reports and Testimony
    The fastest and easiest way to obtain copies of GAO documents at no 
cost is through GAO's website (http://www.gao.gov). Each weekday 
afternoon, GAO posts on its website newly released reports, testimony, 
and correspondence. To have GAO e-mail you a list of newly posted 
products, go to http://www.gao.gov and select ``E-mail Updates.''
Order by Phone
    The price of each GAO publication reflects GAO's actual cost of 
production and distribution and depends on the number of pages in the 
publication and whether the publication is printed in color or black 
and white. Pricing and ordering information is posted on GAO's website, 
http://www.gao.gov/ordering.htm.
    Place orders by calling (202) 512-6000, toll free (866) 801-7077, 
or TDD (202) 512-2537.
    Orders may be paid for using American Express, Discover Card, 
MasterCard, Visa, check, or money order. Call for additional 
information.
Connect with GAO
    Connect with GAO on Facebook, Flickr, Twitter, and YouTube. 
Subscribe to our RSS Feeds or E-mail Updates. Listen to our Podcasts. 
Visit GAO on the web at www.gao.gov.
To Report Fraud, Waste, and Abuse in Federal Programs
    Contact:
    Website: http://www.gao.gov/fraudnet/fraudnet.htm
    E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dbbda9baaebfb5beaf9bbcbab4f5bcb4ad">[email&#160;protected]</a>
    Automated answering system: (800) 424-5454 or (202) 512-7470
Congressional Relations
    Katherine Siggerud, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2152484646445354454a6146404e0f464e57">[email&#160;protected]</a>, (202) 
512-4400, U.S. Government Accountability Office, 441 G Street NW, Room 
7125, Washington, DC 20548
Public Affairs
    Chuck Young, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5c253329323b3f6d1c3b3d33723b332a">[email&#160;protected]</a>, (202) 512-4800, 
U.S. Government Accountability Office, 441 G Street NW, Room 7149, 
Washington, DC 20548-

                                 <F-dash>
                 Prepared Statement of Margarita Devlin

    Mr. Chairman and members of the Subcommittee, thank you for 
inviting me to appear before you today to discuss the independent 
living (IL) services provided by VA's Vocational Rehabilitation and 
Employment (VR&E) program. My testimony will provide an overview, 
performance summary, discussion of VR&E's technology system, and an 
update on implementation of the Government Accountability Office's 
(GAO) recommendations for the IL program.
VR&E Mission and Eligibility
    The Veterans Benefits Administration's (VBA) VR&E program assists 
Servicemembers and Veterans with service-connected disabilities to 
prepare for, find, and keep suitable jobs. For Veterans with service-
connected disabilities so severe that they cannot immediately consider 
work, the IL program offers services to improve their ability to live 
as independently as possible.
    Veterans are eligible for a comprehensive vocational assessment if 
they have a 10 percent or greater service-connected disability rating 
or a 20 percent or greater memorandum rating. Servicemembers are 
eligible for a comprehensive vocational assessment if they have a 20 
percent or greater memorandum rating, an Integrated Disability 
Evaluation System (IDES) rating, or are eligible under the Wounded 
Warrior Act, Public Law (P.L.) 110-181, Title XVI, as extended by the 
Veterans Opportunity to Work (VOW) to Hire Heroes Act of 2011, P.L. 
112-56, Title II, if they have a severe injury or illness.

Independent Living - Overview
    The VR&E program provides eligible Veterans with IL services to 
enable them to function independently within their homes and in their 
communities. IL services can be provided in conjunction with other 
services in a rehabilitation plan leading to an employment goal. Many 
of our men and women returning from service with severe injuries are 
preparing to return to the workforce, but also need IL services that 
can be provided concurrently with their training and employment 
services. Rehabilitation programs may also consist exclusively of IL 
goals, when employment is not feasible for the Servicemember or 
Veteran. These independent living programs will be the focus of my 
testimony.
    Once basic eligibility for an evaluation is established, a VBA 
vocational rehabilitation counselor will conduct a comprehensive 
assessment of the individual's interests, aptitudes, and abilities. If 
the counselor determines that an employment goal is not feasible for 
the individual, the counselor will evaluate the individual's 
eligibility for an IL rehabilitation plan. Servicemembers eligible 
under P.L. 110-181, as extended by the VOW to Hire Heroes Act of 2011 
P.L. 112-56, who require IL services to transition to civilian life, 
and Veterans with a 20 percent service-connected disability rating and 
a serious employment handicap may be eligible to participate in an IL 
rehabilitation program when a counselor has determined that a 
vocational goal is not feasible. The counselor will conduct a 
preliminary assessment of the individual's IL needs. If preliminary 
needs are identified, the counselor will conduct a comprehensive 
assessment to fully evaluate the individual's IL needs and identify 
potential services to meet those needs. The comprehensive assessment 
usually takes place in the individual's home. Following these 
assessments, the individual may be provided a program of IL if he or 
she has limitations in activities of daily living that impact 
independence, can benefit from independent living services, and can be 
expected to maintain achieved gains in independence after services have 
ended.
    Programs of IL may be approved for up to 24 months, and the VR&E 
Officer can approve a 6-month extension. Veterans who served on or 
after September 11, 2001 are eligible for additional extensions as 
provided for in section 331 of P.L. 110-389.
    Some of the IL services VR&E can provide include assistive 
technology, adaptive equipment, IL skills training, improved access in 
the home, improved access to the community, assistance with identifying 
and initiating volunteer or supported employment, services to decrease 
social isolation, and assistance in coordinating services from VA and 
non-VA service providers. The VBA counselor provides ongoing support 
and assistance to enable a participant to achieve his or her IL goals, 
and whenever possible, the counselor will reassess the feasibility of 
employment.
    VR&E collaborates with the Specially Adapted Housing Grant program 
administered by VBA's Loan Guaranty Service when a participant is in 
need of home adaptations. VR&E also collaborates with Veterans Health 
Administration (VHA) programs, including Home Improvements and 
Structural Alterations, Automobile Adaptive Equipment, and the Visually 
Impaired Services Team, for specialized services to support the 
participant's IL goals. IL plans include a coordination element with 
one or more of these programs when appropriate.

The Independent Living Cap
    IL services started as a pilot program in 1980 with the passage of 
P.L. 96-466, the Veterans' Rehabilitation and Education Amendments of 
1980. Under this pilot program, the number of new IL cases was limited 
to no more than 500 per fiscal year (FY). The program was made 
permanent with the passage of P.L. 101-237, Title IV, the Veterans 
Education and Employment Amendments of 1989. The cap was raised in 2001 
from 500 to 2,500 new cases per FY. The most recent increase in the cap 
was included in P.L. 111-275, the Veterans' Benefits Act of 2010, which 
raised the cap to 2,700 cases as of FY 2011. Currently, only 2,700 new 
IL programs may be initiated during a FY. In FY 2013, the VR&E program 
initiated 2,152 new cases.

Program Data
    In FY 2013, 2,152 new IL programs were approved and initiated. A 
total of 1,708 Veterans were declared rehabilitated upon completion of 
their IL programs during FY 2013. Many of these Veterans began 
receiving services prior to the start of the FY. As of September 30, a 
total of 2,887 Veterans were actively participating in their IL 
programs. This includes Veterans who started their programs during the 
FY as well as Veterans who started their programs in prior years. IL 
program participants comprise about 2.3 percent of VR&E program 
workload.
    The VR&E Longitudinal Study Annual Report issued in 2013 provides 
information on two cohorts of Veterans participating in the VR&E 
program. Data for 2010-cohort participants who enrolled in an IL 
program reflects that, as of September 30, 2012, 70 percent had 
successfully rehabilitated, 24 percent were still actively 
participating in their programs, and 6 percent had discontinued 
participation as of the end of FY 2012. Data for 2012-cohort 
participants in an IL program reflects that, as of September 30, 2012, 
12 percent had successfully rehabilitated, 87 percent were still 
actively participating in their programs, and 1 percent had 
discontinued participation as of the end of FY 2012 \1\. The second 
year of longitudinal data for the 2010-cohort is encouraging given the 
strong rehabilitation rate and the rate of participants continuing to 
pursue their programs. If the 2010-cohort continues on this positive 
trajectory, their program outcomes will be consistent with the 94 
percent IL target rehabilitation rate \2\ reported in the FY 2012 
President's Budget as part of the VR&E performance plan.
---------------------------------------------------------------------------
    \1\ VR&E Longitudinal Study, Annual Report 2013 for FY2012
    \2\ FY 2013 President's Budget submission
---------------------------------------------------------------------------
Program Oversight
    Oversight of IL programs begins with the development of the 
Individualized Independent Living Plan (IILP). The plan outlines 
individual IL rehabilitation needs and details the services that will 
be provided to meet those needs. At VBA regional offices, VR&E 
counselors must obtain approval from their VR&E Officer for all 
proposed plans of independent living prior to implementation to ensure 
that program procedures and policies have been properly followed. 
Depending on the total cost of the case, additional approvals may also 
be required prior to implementation. Cost thresholds for cases 
including construction services are as follows: $2,000 or less requires 
VR&E Officer approval; $2,001 to $25,000 requires the Regional Office 
Director's approval; and over $25,000 requires the VR&E Service 
Director's approval. Cost thresholds for cases without construction 
services are as follows: $25,000 or less requires the VR&E Officer's 
approval; $25,001 to $100,000 requires the Regional Office Director's 
approval; and over $100,000 requires the VR&E Service Director's 
approval.
    Nationally, VR&E Service monitors IL services through several 
mechanisms, including reviews conducted during ongoing quality 
assurance audits, site visits, and cost approval requests. VR&E 
conducted 12 site visits in FY 2013, conducted 120 targeted reviews of 
IL cases, and 26 reviews of IL construction cost-approval requests for 
services exceeding $25,000. Additionally, VR&E monitors the number of 
new IL program plans each month to ensure the cap is not exceeded.
    VR&E Service developed and deployed an IL Training Performance 
Support System in FY 2013 to provide important training to vocational 
rehabilitation counselors on independent living eligibility, 
assessments, plan development, and case management requirements. 
Vocational rehabilitation counselors will be required to complete all 
modules of this training course during FY 2014.

Information Technology
    Corporate WINRS (CWINRS) is the VR&E case-management application 
(named after the stations that collaborated to develop the original 
version:
    Winston-Salem, Indianapolis, Newark, Roanoke, and Seattle) used to 
record adjudication of VR&E claims, rehabilitation planning, provision 
of services, and disposition of cases. CWINRS tracks a Veteran's 
progress through the VR&E program. This includes establishing 
entitlement to benefits, establishing appointments, and sending 
transactions to the financial management systems for vendor payments. 
CWINRS utilizes VBA's corporate database to maintain participant 
information and interfaces with VBA's Benefits Delivery Network (BDN) 
and other financial systems to process payment and accounting 
transactions. Veteran cases for all five tracks, including the IL 
track, are managed through the CWINRS application.
    CWINRS enhancements are currently focused on developing a 
Subsistence Allowance Module which will eliminate VR&E's reliance on 
the legacy BDN system and move towards payment through the corporate 
Financial Accounting System. The new corporate payment module is being 
beta tested in eight regional offices, and is currently successfully 
making subsistence payments to more than 200 participants in the VR&E 
program. VR&E is finalizing development of this module to enable future 
national deployment. VR&E is also building requirements for a future 
case-management system that will build on functionality in the Veterans 
Benefits Management System.

Update on implementation of GAO recommendations
    GAO made three recommendations in their report titled ``VA 
Vocational Rehabilitation and Employment Program: Improved Oversight of 
Independent Living Services and Support is Needed.'' GAO recommended 
that VBA ``work with the Undersecretary for Health to explore options 
on ways to enhance coordination to ensure IL track veterans' needs are 
met by VHA, when appropriate, in a timely manner.'' VBA worked with VHA 
to automate medical and dental referrals in the Compensation and 
Pension Records Interchange system, which will expedite services and 
better coordinate and track services to ensure Veterans' needs are 
timely met. The system enhancements are complete, and a 60-day pilot of 
the new capability began in September 2013. Upon completion of the 
pilot, VBA and VHA intend to implement the new process to automate 
medical and dental referrals nationally.
    GAO's second recommendation was to ``implement an oversight 
approach that enables VR&E to better ensure consistent administration 
of the IL track across regions.'' VBA is exploring whether ad hoc 
reports, which provide data on total case costs and types of benefits 
provided, can be developed to meet this requirement. VBA will also 
consider preparing business requirements to allow for additional IL 
data collection for implementation in future years. GAO's third 
recommendation was to ``reassess and consider enhancing the agency's 
current policy concerning the required level of approval for IL track 
expenditures, given the broad discretion individual regional offices 
have in determining the types of goods and services IL track veterans 
receive.'' VBA finds merit in reassessing the current policy to 
identify areas that can be strengthened. While the existing policy 
includes a great deal of cost-threshold approvals, there may be room to 
improve consistency in determining the types of IL goods and services 
Veterans receive. VBA contracted for a detailed review of the IL 
program, including benchmarking against other programs. The initial 
report from this study is due to be completed in first quarter of FY 
2014. VBA will consider the results and recommendations from this 
assessment in determining the best way to implement GAO's 
recommendation.

Concluding Remarks
    VR&E continues to assess the IL program to ensure we are providing 
effective services to our Nation's men and women who sacrificed so much 
and deserve to live their lives without dependence on others to the 
maximum extent possible. We have developed detailed training, conducted 
significant oversight, and continue our efforts to enhance the services 
we provide.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer questions from you or any of the other members of the 
Subcommittee.

                                 <F-dash>
                  Prepared Statement of Paul R. Varela

    Chairman Flores, Ranking Member Takano and Members of the 
Subcommittee:
    Thank you for inviting DAV (Disabled American Veterans) to testify 
at today's hearing of the Subcommittee on Economic Opportunity 
reviewing the Department of Veterans Affairs' (VA's) Independent Living 
(IL) program within the Vocational Rehabilitation and Employment (VR&E) 
service.
    As you know, DAV is a non-profit veterans service organization 
comprised of 1.2 million wartime wounded, injured and ill veterans and 
dedicated to a single purpose: empowering veterans to lead high-quality 
lives with respect and dignity. To fulfill our mandate of service to 
America's disabled veterans, DAV employs a corps of close to 270 
National Service Officers (NSOs), all of whom are wartime service-
connected disabled veterans, in order to provide benefits counseling at 
no charge to any veteran, their dependents, or their survivors. Before 
accepting my current assignment on DAV's National Legislative staff, I 
worked for a decade as a DAV NSO in New York and Los Angeles, serving 
as the Supervisor of DAV's LA office for my final five years in the 
field.
    Every one of DAV's NSOs brings with them military experience, as 
well as personal experience navigating the VA health care and claims 
processing systems. We have all participated and completed a VR&E 
``rehabilitation'' plan as part of our DAV training. Due to our 
backgrounds and training, DAV's NSOs not only possess a significant 
knowledge base, but also a passion for helping our fellow veterans 
through the labyrinth of the VA system.
    DAV NSOs are situated in all 56 VA regional offices (RO) as well as 
in other VA facilities throughout the nation. Last year, DAV NSOs 
interviewed over 187,000 veterans and their families; reviewed more 
than 326,000 VA claims files; filed over 234,500 new claims for 
benefits; and obtained more than $5.1 billion in new and retroactive 
benefits for the wounded, injured, and ill veterans we represented 
before the VA. Our NSOs also participated in more than 287,000 VA 
Rating Board actions. In addition to assisting them file claims for 
disability compensation, our NSOs regularly advise veterans of the 
opportunities and benefits offered by VA's vocational rehabilitation 
programs, particularly for those with severe disabilities making work 
difficult or impossible. As part of our lifelong continuing education 
program, DAV's NSOs are trained on all VR&E programs, including the IL 
program, and we regularly refer and encourage our clients to consider 
VR&E programs whenever appropriate.
    Mr. Chairman, DAV is a staunch proponent of the IL program and all 
VR&E programs, because they embody DAV's central purpose of empowering 
veterans to lead high-quality lives with respect and dignity. To be 
eligible and entitled to receive VR&E services, a veteran generally 
must have a service-connected disability rated at least 20% or greater 
and have an employment handicap. Veterans with a 10% rating may be 
entitled to VR&E services if it is determined that they have a serious 
employment handicap. When evaluating barriers to employment, the 
Vocational Rehabilitation Counselor (VRC) takes into consideration the 
veteran's level of disability, rehabilitation potential, and future 
employment goals. Once entitlement is established, a VRC works with the 
veteran to develop a rehabilitation plan along one of five tracks: 
reemployment (with a prior employer); new employment; self-employment; 
employment through long-term services (through on-the-job training, 
college, and other training programs); and independent living.
    The IL program is uniquely designed to provide seriously disabled 
who are currently unlikely to benefit from one of the four employment-
related tracks, the opportunity to lead more fulfilling and independent 
lives within the constraints and limitations of their service-connected 
disabilities. Together with the veteran, the VRC will develop an 
Independent Living plan detailing the specific goods and services 
needed to achieve the goals of the plan. Until a recent change was made 
to the M-28 Procedures Manual, the VRC was guided by nine fundamental 
principles, considered the ``Philosophical Framework'' of the IL 
program:

    1. To enhance the disabled veteran's participation in activities of 
daily living (ADL);

    2. To assist the veteran in participating to the maximum extent 
possible and desirable in family and community life;

    3. To provide the most effective services and assistive technology 
based on sound research evidence;

    4. To provide required holistic evaluation and services for all 
veterans who qualify;

    5. To develop rehabilitation plans that provide services to address 
all identified independent living needs;

    6. To consider the veteran's expressed interests and desires but 
provide services based on objectively identified needs;

    7. To establish goals and measure/verify outcomes;

    8. To provide services that produce a sustaining influence that 
continues after rehabilitation services are completed; and

    9. To explore the possibility of paid or volunteer employment, when 
feasible.

    We believe that these principles should continue to guide the work 
of VRCs and would recommend that VR&E consider whether it would be 
beneficial to restore the language into the preamble of the Manual or 
in any other appropriate way.
    A VRC has wide latitude in developing an IL plan, which generally 
includes five types of services: assistive technology; specialized 
medical, health and/or rehabilitation services; services to address any 
personal or family adjustment issues; independent living skills 
training; and connection with community-based support services. When 
possible, services and goods required by a plan should be provided 
through other existing VA programs, such as the Specially Adapted 
Housing (SAH), the Prosthetic and Sensory Aids Service (PSAS) and Home 
Improvements and Structural Alterations (HISA) programs.
    VR&E will also directly purchase needed goods and services to 
fulfill the IL plan. VR&E Officers are authorized to approve IL plan 
expenditures of up to $75,000; expenditures of $75,000 to $100,000 
require the approval of the RO director; and expenses exceeding 
$100,000 require the approval of the VR&E Service Director. There also 
exist additional approval requirements for construction costs up to 
$2,000, costs between $2,000 and $25,000 and costs exceeding $25,000, 
which require the approval of the VR&E Service Director.
    It is important to remember, Mr. Chairman, this program serves men 
and women who have suffered significant injuries and illnesses from 
their service, who are not able to find employment, and who are not 
likely to benefit from any employment-related services. Whether they 
have lost limbs, sustained severe burns, or suffer from debilitating 
mental disorder, such as PTSD, the IL program was created to help these 
men and women become more independent in their daily lives, to interact 
with families and in communities, and to find greater purpose and 
meaning in their lives. Considering all that they have sacrificed for 
us, it is the least that a grateful nation can offer them.

           Remove the Cap on Independent Living Participants

    The IL program was initially created as a pilot program by Congress 
in October 1980 as part of Public Law 96-466, and was limited to no 
more than 500 participants. In 1986, Congress enacted legislation, 
Public Law 99-576, that made the program permanent and the cap on 
participants has increased over the years since, most recently 
increasing to 2,700 in 2010 with enactment of Public Law 111-275. While 
we appreciate the fiscal constraints and budgetary scoring concerns 
that Congress must address, we believe that placing a cap of 2,700 IL 
participants establishes an arbitrary limit on a valuable program that 
serves some of our most deserving and needy veterans.
    Moreover, there is little or no data available to determine how 
many veterans could benefit from participation in the IL program in the 
absence of the arbitrary cap. As the Government Accountability Office 
(GAO) has pointed out in their recent report on the IL program (GAO-13-
474), VR&E does not systematically track variances in caseloads among 
its ROs. Based on GAO's analysis, during fiscal years 2008 thru 2011, 
the number of IL participants ranged from a high of 908 at the 
Montgomery, Alabama RO to a low of four at the Wilmington, Delaware RO. 
The GAO report makes clear that every RO approaches the IL program 
differently, with some aggressively steering eligible veterans in that 
direction, and others apparently having little understanding or 
interest in pursuing the IL track. Anecdotally, we have heard VR&E 
officials indicate that the cap on participation discourages VRCs from 
promoting the IL program, and that conversely, if the cap were removed 
it could create greater interest among VRCs to promote this option to 
appropriate veterans.
    It is also worth noting that a veteran can have more than one IL 
plan within the same year, and that each of this veteran's plans counts 
towards that cap, further limiting the number of veterans who can 
benefit. This requirement also creates some confusion in the reporting 
and accounting elements of the program that must be clarified.
    There is now legislation pending that would remove this cap and 
require VR&E to improve the education of its employees in regards to 
the IL program. H.R. 3330, the Veterans' Independent Living Enhancement 
Act, was introduced by Congresswoman Michelle Lujan Grisham in October 
and currently has 16 cosponsors. We would urge this Subcommittee to 
consider and report this legislation.

   Improve Awareness and Outreach for the Independent Living Program

    In order to maximize the benefits of the IL program, VR&E must 
significantly enhance its internal and external awareness and outreach 
efforts. We have been informed that VR&E is preparing to distribute 
literature within VA facilities notifying veterans about the IL program 
and we applaud that effort. We have also been made aware that VR&E is 
creating a web-based training element on the IL program that will be 
mandatory for all VRCs. However, although participation in the web-
based training will reach all current and newly hired VRCs once, it is 
imperative that this training be repeated at appropriate intervals to 
ensure the VRCs maintain current knowledge about the IL program and the 
opportunities it presents for appropriate veterans. VR&E should also 
review whether its VRC skills certification process is sufficient to 
ensure continued national understanding of the IL program.
    The GAO report also found that one of the key reasons for 
differences in caseloads among ROs was due to the, `` . . . office's 
focus on IL cases and community outreach efforts, including the 
involvement of veterans service organizations.'' DAV would welcome 
opportunities to collaborate with other VSOs and VR&E to make veterans 
more aware of these services. As I mentioned earlier, DAV NSOs 
regularly counsel eligible veterans about the benefits of participation 
in VR&E programs including the IL program. Furthermore, as part of 
their continued employment with DAV, our NSOs will review the VR&E 
program, including the IL program, as part of our Structured and 
Continued Training Program, which must be completed and repeated 
throughout our careers. In addition, we are currently planning to host 
a web-based training initiative to highlight components of the IL 
program as part for our ongoing training administered to NSOs.
    Another way to increase awareness programs would be to require that 
VBA include information about entitlement to vocational rehabilitation 
services in all appropriate correspondence with eligible veterans. 
Currently, disability compensation claims decisions and notification 
letters awarding or increasing a service-connected rating of 10 percent 
or greater are required to include information about VR&E eligibility, 
however other rating actions, such as denials for increases or other 
benefits, do not. VBA should reexamine its procedures and consider 
other ways to educate and encourage veterans to consider VR&E services.

  IT Modernization Needed for Better Program Management and Oversight

    In its recent report, GAO concluded that VR&E's case management 
information technology (IT) system, commonly referred to as CWINRS, `` 
. . . does not meet VR&E's current needs and limits its oversight 
abilities . . . '' The CWINRS system does not properly capture some of 
the most basic data and information, including the number of IL 
participants. Instead it tracks the number of IL plans, making it 
ineffective at monitoring the statutory cap on participation. In 
addition, CWINRS also does not maintain information on how much money 
is spent on individual IL services, nor even the aggregate totals for 
such services each year. The tracking system is woefully inadequate to 
allow sufficient management or oversight VR&E programs in general.
    VR&E recently began a one-year test to improve its tracking of IL 
expenditures and outcomes related to home modifications and 
construction. (VR&E Letter 28-13-43). However, this and other attempts 
to improve the transparency, management and oversight of the IL program 
will continue to be hampered as long as they are relying on an 
outdated, inadequate IT system, such as CWINRS.
    Rather than spend time and resources on trying to patch and upgrade 
the CWINRS system, DAV recommends that the VR&E IT needs be addressed 
through the new Veterans Benefits Management System (VBMS), which was 
primarily developed by VBA for managing the disability compensation 
system. Although VBMS is eventually intended to serve all of VBA's 
business lines, there remains much work on that core system, limited 
resources and no current plans to make it ready for use by VR&E. Given 
the importance of vocational rehabilitation programs, including the IL 
program, and the inadequate CWINRS system currently in place, VA must 
request, and Congress should approve sufficient additional funding for 
IT development and deployment of VBMS as soon as technically feasible.

             Better Coordination and Cooperation within VA

    As mentioned above, the IL program provides veterans with many 
services and goods from other VA programs, including health care from 
the Veterans Health Administration (VHA), equipment from the PSAS and 
adaptive equipment and services from the SAH and HISA programs. Despite 
the fact that these are all VA programs and offices, GAO and others 
have reported that coordination and cooperation can often be difficult. 
VR&E rehabilitation plans, including IL plans, often require 
concurrence from a VHA physician, such as in relation to mobility 
devices, and there may be occasions when the physician believes that 
allowing a veteran to rely on a mobility device may be contrary to the 
clinical need to encourage greater physical activity for their 
rehabilitation in responding to VR&E requests.
    However, just as VBA has encountered problems in trying to get VHA 
doctors to complete disability benefit questionnaires for veterans with 
claims for disability compensation, VR&E has problems getting VHA 
physicians to approve IL plans in a timely fashion. VR&E and VHA must 
work together to provide better education and training to VHA staff to 
encourage greater cooperation.
    VRCs have also encountered similar difficulty getting responses 
from SAH, PSAS and HISA program offices. In some instances, this may 
result in the purchase of goods and services from an outside contractor 
that could and should have been provided by internal VA programs. As 
with the difficulties related to VHA, VR&E must work with these program 
officials to remove unnecessary delays and other bureaucratic red tape 
that hinders the timely provision of services to IL participants. All 
of these offices work for the same Department and should be serving the 
interests of veterans. If they are unable or unwilling to work together 
effectively, the Secretary and Congress must take appropriate actions 
to make them do so.
    Mr. Chairman, despite the management and oversight challenges 
discussed in our testimony and the GAO report, we continue to believe 
that VR&E's Independent Living program is an essential, appropriate and 
empowering benefit that has and should continue to make a tremendous 
difference in the lives of thousands of veterans every year. We 
strongly encourage you to continue examining ways to improve this 
program and we stand ready to work with the Subcommittee in any way we 
can to offer our assistance and support.
    This concludes my testimony and I would be happy to answer any 
questions you may have.

                                 <F-dash>
                       Submission For The Record
                 U.S. GOVERNMENT ACCOUNTABILITY OFFICE
    View GAO-14-149T. For more information, contact Dan Bertoni at 
(202) 512-7215 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8babdaaacb7b6b1bc98bfb9b7f6bfb7aef6">[email&#160;protected]</a>
    Highlights of GAO-14-149T, a testimony before the Subcommittee on 
Economic Opportunity, Committee on Veterans' Affairs, U.S. House of 
Representatives

    November 13, 2013

    VA VOCATIONAL REHABILITATION AND EMPLOYMENT PROGRAM

    Independent Living Services and Supports Require Stronger Oversight

Why GAO Did This Study
    The IL track--one of five tracks within VA's VR&E program--provides 
a range of non-employment related benefits to help veterans with 
service-connected disabilities live more independently when employment 
is not considered feasible at the time they enter the VR&E program. 
These benefits can include counseling, assistive devices, and other 
services or equipment. This testimony is based on GAO's report issued 
in June 2013, and describes (1) the characteristics of veterans in the 
IL track, and the types and costs of benefits provided; (2) the extent 
to which their IL plans were completed, and the time it took to 
complete them; and (3) the extent to which the IL track has been 
administered appropriately and consistently across regional offices.
    GAO analyzed VA administrative data from fiscal years 2008 to 2011, 
and reviewed a random, generalizable sample of 182 veterans who entered 
the IL track in fiscal year 2008. In addition, GAO visited five VA 
regional offices; interviewed agency officials and staff; and reviewed 
relevant federal laws, regulations, and agency policies, procedures, 
studies, and other documentation.

What GAO Recommends
    In its June 2013 report, GAO recommended that VR&E explore options 
to enhance coordination with VHA, strengthen its oversight of the IL 
track, and reassess its policy for approving benefits. VA agreed with 
these recommendations.

What GAO Found
    Of the 9,215 veterans who entered the Department of Veterans 
Affairs' (VA) Independent Living (IL) track within the Vocational 
Rehabilitation and Employment (VR&E) program from fiscal years 2008 to 
2011, most were male Vietnam era veterans in their 50s or 60s. The most 
prevalent disabilities among these veterans were post-traumatic stress 
disorder and tinnitus (``ringing in the ears''). GAO's review of 182 IL 
cases from fiscal year 2008 shows that VR&E provided a range of IL 
benefits to veterans; the most common benefits being counseling 
services and computers. Less common benefits included gym memberships, 
camping equipment, and a boat. GAO estimates that VR&E spent nearly $14 
million on benefits for veterans entering the IL track in fiscal year 
2008--an average of almost $6,000 per IL veteran.
    About 89 percent of fiscal year 2008 IL veterans were considered by 
VR&E to be ``rehabilitated'' by the end of fiscal year 2011; that is, 
generally, to have completed their IL plans. These plans identify each 
veteran's independent living goals and the benefits VR&E will provide. 
The remaining 11 percent of cases were either closed for various 
reasons, such as the veteran declined benefits, or were still active. 
Rehabilitation rates across regions varied from 49 to 100 percent, and 
regions with larger IL caseloads generally rehabilitated a greater 
percentage of IL veterans. On average, IL plans nationwide were 
completed in 384 days; however, completion times varied by region, from 
150 to 895 days.
    GAO identified four key areas where VR&E's oversight was limited. 
First, some regions may not be complying with certain case management 
requirements. For instance, while VR&E is required to coordinate with 
the Veterans Health Administration (VHA) on IL benefits, VR&E 
counselors have difficulty obtaining timely responses from VHA. This 
has resulted in delayed benefits or VR&E providing the benefits instead 
of VHA. Second, VR&E does not systematically monitor regional variation 
in IL caseloads and benefits provided. Instead, it has relied on its 
quality assurance reviews and ad hoc studies, but these are limited in 
scope. Third, VR&E's policies for approving IL expenditures may not be 
appropriate as regions were permitted to purchase a range of items 
without Central Office approval, some of which were costly or 
questionable. In one case GAO reviewed, Central Office review was not 
required for expenditures of $17,500 for a boat, motor, trailer, and 
the boat's shipping, among other items. Finally, VR&E's case management 
system does not collect information on IL costs and the types of 
benefits purchased. VR&E also lacks accurate data on the number of IL 
veterans served. While the law currently allows up to 2,700 veterans to 
enter the IL track annually, data used to monitor the cap are based on 
the number of IL plans developed, not on the number of individual 
veterans admitted. Since veterans can have more than one IL plan in a 
fiscal year, one veteran could be counted multiple times towards the 
cap. VA plans to make modifications to its case management system to 
address this, but officials noted that it could take up to 3 years to 
obtain funding for this project.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
